<html>
<title> - THREATS TO THE HOMELAND</title>
<body><pre>[Senate Hearing 116-430]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-430
 
                        THREATS TO THE HOMELAND

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                            NOVEMBER 5, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




                           ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
42-868 PDF            WASHINGTON : 2021 
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
              Nicholas Ramirez, U.S. Coast Guard Detailee
               David M. Weinberg, Minority Staff Director
         Alexa E. Noruk, Minority Director of Homeland Security
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Peters...............................................     2
    Senator Hassan...............................................    14
    Senator Harris...............................................    17
    Senator Scott................................................    20
    Senator Carper...............................................    23
    Senator Portman..............................................    26
    Senator Lankford.............................................    28
    Senator Romney...............................................    31
    Senator Hawley...............................................    33
    Senator Sinema...............................................    37
Prepared statements:
    Senator Johnson..............................................    47
    Senator Peters...............................................    48

                               WITNESSES
                       Tuesday, November 5, 2019

Hon. David J. Glawe, Under Secretary, Office of Intelligence and 
  Analysis, U.S. Department of Homeland Security.................     4
Hon. Christopher A. Wray, Director, Federal Bureau of 
  Investigation, U.S. Department of Justice......................     6
Russell Travers, Acting Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence........     8

                     Alphabetical List of Witnesses

Glawe, Hon. David J.:
    Testimony....................................................     4
    Prepared statement...........................................    50
Travers, Russell:
    Testimony....................................................     8
    Prepared statement...........................................    70
Wray, Hon. Christopher A.:
    Testimony....................................................     6
    Prepared statement...........................................    63

                                APPENDIX

Senator Scott's letter to FBI....................................    79
Get Back respone to Senator Lankford.............................    81
Get Back respone to Senator Sinema...............................    82
Get Back respone to Senator Peters...............................    83
Get Back respone to Senator Hawley...............................    85
Responses to post-hearing questions for the Record:
    Mr. Glawe....................................................    87
    Mr. Wray.....................................................   123
    Mr. Travers..................................................   138


                        THREATS TO THE HOMELAND

                              ----------                              


                       TUESDAY, NOVEMBER 5, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SH-216, Hart Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Portman, Lankford, Romney, 
Scott, Hawley, Peters, Carper, Hassan, Harris, Sinema, and 
Rosen.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good afternoon. This hearing will come to 
order.
    I want to, first and foremost, thank our witnesses for your 
service to our country. I want to thank you, obviously, for 
taking the time and for your testimony and the answers to our 
questions but, again, first and foremost, your service to our 
country. This was not planned this way, but this does mark the 
10-year--I hate to even call it an ``anniversary''--of the 
shooting at Fort Hood. Thirteen people lost their lives; 30 
people were injured. But it kind of underscores what we are 
dealing with here in terms of a threat environment.
    This is my ninth annual threat hearing that I have either 
chaired or participated in. I oftentimes say I am not the most 
uplifting character. I wish I could say that in those 9 years I 
have seen tremendous progress being made and we have reduced 
these threats and all is well.
    Unfortunately, we face the same threats. If anything, the 
threats are growing. I do not think 9 years ago we were talking 
about the modern use of drones. We were not talking about 
encrypted and the use of social media to the extent it is being 
used right now. So, we face the same threats. They are 
evolving. Terrorist groups are metastasizing; they are 
spreading around the world. And if anything, what has happened 
is just trying to deal with and counter those threats has grown 
more complex and far more difficult.
    You have tremendous responsibilities on your shoulders, and 
I truly do appreciate the fact that you are willing to bear 
those responsibilities.
    I would ask that my written statement be entered into the 
record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    Rather than just kind of repeat what you are going to be 
talking about, rather than depress people further, I will turn 
it over to my Ranking Member, and then we will get into witness 
testimony.

             OPENING STATEMENT OF SENATOR PETERS\2\

    Senator Peters. Thank you, Mr. Chairman. And to each of our 
witnesses, thank you. Thank you for your service. Thank you for 
being here today.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Peters appear in the Appendix 
on page 48.
---------------------------------------------------------------------------
    As we all know, the Department of Homeland Security (DHS) 
was created to defend the United States from any and all 
threats to the safety of our Nation. The Department and its 
leaders are critical to our national security efforts, and we 
rely on them to effectively coordinate with both the National 
Counterterrorism Center (NCTC) and the Federal Bureau of 
Investigation (FBI) to provide a unified effort to defend the 
homeland.
    When DHS was first created in the aftermath of September 
11, 2001 (9/11), the agency's mission was very clear: combat 
the scourge of international terrorism and ensure that we could 
say with confidence, ``Never again.''
    But over time, the narrow focus has expanded, and as the 
threats to our homeland have grown, they have become more 
dynamic as well.
    New terrorist groups devoted to striking America and our 
allies have emerged.
    Foreign adversaries and cyber criminals seek to infiltrate 
and disrupt the Nation's cyber networks, posing an asymmetric 
threat that could cripple our economy with simply the click of 
a button.
    Foreign interference in our domestic affairs has presented 
a complicated new challenge that we are still scrambling to 
adequately address.
    A rise in domestic terrorism, specifically acts of violence 
carried out by white supremacist extremists, has targeted 
racial and religious minority communities all across our 
country.
    Every year, we hold these hearings to examine these and 
other threats facing our country and to hear from the heads of 
the agencies responsible for keeping America safe.
    The safety of Americans is built on partnership--
partnership between our security agencies here today, 
partnership between agency leadership and their staff, and 
partnership between Congress and the Administration.
    As we convene this hearing without a Secretary of Homeland 
Security, acting or otherwise, I am deeply concerned that these 
partnerships are starting to unravel. The absence of steady 
leadership at the Department of Homeland Security is a driving 
force for the institutional breakdowns that risk making us less 
safe.
    The Department needs and the American people certainly 
deserve qualified, consistent, and stable leadership that will 
empower the brave men and women at DHS to protect the homeland, 
respond to natural disasters, and allow our Nation to grow and 
to prosper.
    This Committee will continue to exercise thorough oversight 
of the Department's efforts to ensure that communities are 
protected from these threats, but that requires cooperation 
from your agencies and your compliance with constitutionally 
mandated requests.
    I am extremely disappointed in your agencies' failures to 
provide a sufficient or, in the case of the FBI, any response 
to bipartisan requests from this Committee about the growing 
threat of domestic terrorism and white supremacist violence.
    No one should live in fear of being attacked in their 
neighborhoods or in their houses of worship. This is a serious 
and growing threat, one we must address in order to save lives 
and to protect the very core of what makes us a free, a 
diverse, and a vibrant people.
    I am grateful that your departments have taken the 
important step of presenting a framework for addressing this 
threat, but we cannot stop with a simple acknowledgment or a 
strategy put onto paper. This threat is not theoretical, and 
neither should our response be.
    I insist that you comply with our outstanding requests--
bipartisan requests, I may say--immediately as Congress works 
to combat the very real threat of domestic terrorism.
    This Committee and your agencies must work together to 
review the policies and actions needed to keep Americans safe 
and ensure that they are successful.
    I am grateful to each of you for joining us here today. I 
look forward to hearing from you about the threats that America 
currently faces, what your departments are doing to address 
these threats, and how this Committee and your agencies can 
continue working together to protect our national security.
    Again, thank you for being here. I look forward to your 
testimony.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will all stand and raise your 
right hand. Do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Glawe. I do.
    Mr. Wray. I do.
    Mr. Travers. I do.
    Chairman Johnson. Please be seated.
    In light of Secretary Kevin McAleenan's announced 
retirement, representing the Department of Homeland Security is 
the Honorable David Glawe. Mr. Glawe is the Under Secretary for 
Intelligence and Analysis (I&A) at the Department of Homeland 
Security. Mr. Glawe was confirmed by the Senate on August 3, 
2017. Prior to serving in this capacity, he served as Special 
Assistant to the President and Senior Director for Homeland 
Security. He has over 26 years of intelligence community (IC) 
and law enforcement experience, including serving in senior 
positions within the Office of the Director of National 
Intelligence (ODNI) and the Federal Bureau of Investigation. 
Mr. Glawe.

TESTIMONY OF THE HONORABLE DAVID J. GLAWE,\1\ UNDER SECRETARY, 
    OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Glawe. Chairman Johnson, Ranking Member Peters, and 
distinguished members of the Committee, it is my honor and 
privilege to testify on behalf of the Department of Homeland 
Security to address today's emerging worldwide threats.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Glawe appears in the Appendix on 
page 50.
---------------------------------------------------------------------------
    First, let me briefly touch upon my role. I currently serve 
as the Chief Intelligence Officer and Under Secretary at the 
Department of Homeland Security. I am responsible for ensuring 
the Secretary, our 22 DHS components, and our homeland security 
partners have access to the intelligence they need to keep the 
country safe. My focus is to ensure the unique tactical 
intelligence from the DHS intelligence enterprise is shared 
with operators and decisionmakers across all levels of 
government so they can more effectively mitigate threats to the 
homeland. My office generates intelligence that is unbiased and 
based on sound analytic judgments that meet the U.S. 
intelligence community standards.
    I will speak today about the major shifts in the threat 
landscape. Specifically, I would like to speak about the 
threats we face from foreign terrorist organizations, domestic 
terrorism, cyber, foreign influence, and transnational 
organized crime (TOC).
    Underpinning these threats is increasing adversarial 
engagement from nation-states such as China, Russia, Iran, and 
North Korea.
    Domestic terrorism and targeted violence. I want to address 
one of the most pervasive threats we face in the homeland, 
which is the threat of targeted violence and mass attack, 
regardless if it is considered domestic terrorism or a hate 
crime. There is no moral ambiguity. These extremists are often 
motivated by violent ideologies or perceived grievances, often 
targeting race, ethnicity, national origin, religion, sexual 
orientation, gender, or gender identity. Lone attackers 
generally perpetrate these attacks and subscribe to an ideology 
that advocates hate and violence. They have adopted an 
increasingly transnational outlook in recent years, largely 
driven by technological advances through the use of social 
media and encrypted communication to connect with like-minded 
individuals online.
    We are focused on identifying the behaviors and indicators 
of an individual at risk of carrying out targeted violence 
attacks so that we can appropriately identify and mitigate any 
violent act before it is carried out.
    As a former police officer in rural Colorado and part of 
the 1999 Denver Metropolitan Police's areas response to the 
horrific attack at Columbine High School in Littleton, 
Colorado, I have firsthand experience, and it has shaped my 
approach to dealing with this type of violence.
    At the Federal level, the Federal Bureau of Investigation 
and the Department of Justice (DOJ) lead the investigations and 
prosecuting of these crimes, while DHS informs, equips, and 
trains our homeland security partners to enhance their 
prevention and protection capability.
    Foreign terrorist organizations remain a core priority of 
DHS' counterterrorism mission. We continue to make substantial 
progress in our ability to detect and mitigate the threats that 
these groups pose. However, foreign terrorist organizations 
remain intent on striking the country through directed attacks 
or by radicalizing the most vulnerable and disaffected 
Americans. These groups seek to inspire violence, encouraging 
individuals to strike at the heart of our Nation and attack the 
unity of our vibrant and diverse society. The Islamic State of 
Iraq and Syria (ISIS), al-Qaeda, and returning foreign fighters 
represent significant, persistent, and long-term national 
security threats.
    Regarding cyber threats and emerging technologies, cyber 
threats remain a significant strategic risk for the United 
States, threatening our national security, economic prosperity, 
and safety. Nation-states' cyber criminals are increasing the 
frequency and sophistication of their attacks and malicious 
activity. China, Russia, Iran, and North Korea are developing 
and using advanced cyber capabilities and intend to target 
critical infrastructure, steal our national security and trade 
secrets, and threaten our democratic institutions.
    The foreign intelligence threat has quickly evolved into 
one of the most significant threats our country has seen in 
decades. U.S. adversaries, including Russia, China, Iran, and 
North Korea, and other strategic competitors will use online 
influence operations to try to weaken democratic institutions, 
undermine U.S. alliances, threaten our economic security, and 
shape policy outcomes. We expect our adversaries and strategic 
competitors to refine their capabilities and add new tactics as 
they learn from their current experience, suggesting the threat 
landscape could look very different in the future.
    Transnational organized crime. Transnational criminal 
organizations have a destabilizing effect on the Western 
Hemisphere by corrupting governments and government officials, 
eroding institutions, and perpetuating violence. They profit 
from a range of illicit activity, including human smuggling and 
trafficking, extortion and kidnapping, and narcotics 
trafficking. Their activity has led to record levels of crime 
and murder in Mexico, with a direct impact on the safety and 
security of our citizens.
    I want to address the horrific events in Mexico from the 
last 24 hours. The reprehensible killings in northern Mexico of 
American citizens, including women, children, and infants, is a 
stark example of how these brutal organizations operate on a 
daily basis. The violence and disregard for human life 
displayed by these criminal organizations is as barbaric and 
gruesome as any terrorist organization we see around the globe. 
Transnational criminal organizations are motivated by money and 
power. They continually adjust their operations and supply 
chain to avoid detection and interdiction by law enforcement. 
Like legitimate businesses, they are quick to take advantage of 
improved technology, cheaper transportation, and better 
distribution methods. In many ways, cartels operate with the 
same sophistication of a foreign intelligence service.
    In conclusion, I am very proud to oversee the Department's 
intelligence efforts to ensure the safety and security of all 
Americans. I want to thank you for the Committee's support of 
the Department. It is a privilege to represent the men and 
women of the Department of Homeland Security, and I look 
forward to your questions this afternoon.
    Thank you.
    Chairman Johnson. Thank you, Mr. Secretary.
    Our next witness is the Honorable Christopher Wray. Mr. 
Wray is the Director of the Federal Bureau of Investigation. On 
August 2, 2017, Director Wray was sworn in as the eighth FBI 
Director. He previously served as Assistant Attorney General 
(AG) at the Department of Justice for Criminal Division. 
Director Wray.

 TESTIMONY OF THE HONORABLE CHRISTOPHER A. WRAY,\1\ DIRECTOR, 
  FEDERAL BUREAU OF INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Wray. Thank you. Good afternoon, Chairman Johnson, 
Ranking Member Peters, Members of the Committee. I am honored 
to be here today representing the roughly 37,000 men and women 
of the FBI. It has been just over 2 years, as you noted, Mr. 
Chairman, since I became FBI Director, and I have now had the 
opportunity to visit all 56 of our field offices, many of them 
more than once, all across the country and met with State and 
local partners from every State represented by this Committee. 
I have also had the opportunity to meet with every headquarters 
division, scores of our foreign partners, business and 
community leaders, and crime victims and their families, and I 
think I have a much better sense now of what we are all up 
against.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wray appears in the Appendix on 
page 63.
---------------------------------------------------------------------------
    Frankly, the threats that we face today are very different 
from over a decade ago. They are evolving in scale, in 
complexity, in impact, in agility, and the FBI is moving 
forward to meet those threats head-on.
    Preventing terrorist attacks remains the FBI's top 
priority. Even as we recognize our country's important 
achievements with the death of al-Baghdadi and our fight 
against ISIS in the Middle East, we know that we have to stay 
vigilant against that threat, both overseas and here at home, 
and that includes people bent on joining terrorist 
organizations where they flourish abroad, folks like the two 
Milwaukee men sentenced earlier this year who were swearing 
allegiance to Baghdadi and trying to travel overseas to Syria 
to join the fight with ISIS.
    We are also laser-focused on preventing terrorist attacks 
by people who are already here in the United States inspired by 
foreign terrorists, the people we refer to as the ``homegrown 
violent extremists (HVE).'' Often lone actors, these folks are 
inspired by foreign ideologies, but self-radicalize and operate 
through websites and encrypted messaging platforms rather than 
in some remote training camp or cave.
    We are also keenly focused on threat of domestic terrorism, 
attacks carried out by a wide variety of violent extremist 
ideologies. That is everything from anarchist groups to 
racially motivated violent extremists.
    To confront these threats, we are working closely with our 
Federal, State, and local law enforcement partners and reaching 
out to all the communities we serve. And our efforts are paying 
off. We are being proactive, like in the case of the man our 
Miami Joint Terrorism Task Force (JTTF) arrested in August for 
threatening, among other things, to kill every Hispanic 
American in Miami; or the Las Vegas man our JTTF arrested the 
same month, who had been discussing a potential synagogue 
attack and had already purchased bomb-making materials; or the 
man we arrested just this past Friday who also planned to 
attack a synagogue, this one in Colorado, using pipe bombs and 
dynamite.
    But these cases present unique challenges in part because 
in this country we do not investigate a person just because of 
his or her beliefs. And these people, like the homegrown 
violent extremists I was describing earlier, tend to work 
online and move quickly, at the speed of social media, leaving 
dangerously little warning time from espousing radical views to 
attack. I can tell you, after having personally walked through 
the crime scene at the Tree of Life synagogue and having 
personally visited with the teams at the scenes both in El Paso 
and in Dayton, that this threat is never far from our minds and 
is a focus all across the FBI.
    Now, we do not have time to talk through, certainly in my 
opening but probably even in this hearing, all the top threats 
that we are dealing with, but I hope we can touch on more of 
them as I respond to your questions this afternoon. In 
particular, on the counterintelligence front, where the Chinese 
Government is now targeting our innovation through a wider than 
ever range of actors. Not just Chinese intelligence officers 
conducting both traditional and cyber espionage, but people 
they enlist to help them like contract hackers, certain 
graduate students and researchers, insider threats within U.S. 
businesses, and a whole variety of other actors working on 
behalf of China.
    We see the Chinese Government encouraging and even 
assisting the abuse of incentive plans like the so-called 
Thousand Talents Program, plans that offer cash and other 
enticements to bring American information back to China, 
information that is often actually trade secrets and other 
innovations stolen from American companies and universities. We 
are seeing Chinese companies then using that stolen technology 
to compete against the very American companies it belongs to.
    We are seeing intellectual property and data theft from 
companies and academic institutions of just about every size in 
just about every sector. This is a threat to our economic 
security and in many respects a threat to our national 
security. It is also a threat to American jobs, American 
businesses, American consumers, and it is in small towns and 
big cities alike.
    Even as we speak, even as I sit here testifying before this 
Committee, the FBI has around 1,000 investigations involving 
attempted theft of U.S.-based technology that lead back to 
China, and that is involving nearly all of the FBI's 56 field 
offices. I can tell you that number is representing a 
significant uptick from a few years ago, and it is growing.
    The men and women of the FBI dedicate themselves every day 
to keeping the American people safe. I want to thank this 
Committee for your support for our FBI workforce. I can tell 
you it makes all the difference in the world to our hardworking 
agents, analysts, and professional staff all across this 
country and, frankly, around the world.
    So thank you again for the opportunity to appear before you 
today.
    Chairman Johnson. Thank you, Director Wray.
    Our third witness is Russell Travers. Mr. Travers is the 
Acting Director of the National Counterterrorism Center. Acting 
Director Travers has been in this position since August 16, 
2019, although he also served as the Acting Director from 
December 2017 to December 2018. His previous service includes 
Deputy Director of NCTC and Special Assistant to the President 
and Senior Director for Transnational Threat Integration and 
Information Sharing on the National Security Council (NSC). Mr. 
Travers.

  TESTIMONY OF RUSSELL TRAVERS,\1\ ACTING DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Travers. Thank you and good afternoon. Chairman 
Johnson, Ranking Member Peters, Members of the Committee, it is 
a privilege to be here to represent the men and women of the 
National Counterterrorism Center.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Travers appear in the Appendix on 
page 70.
---------------------------------------------------------------------------
    In the years since 9/11, the U.S. counterterrorism 
community and its many partners have achieved significant 
successes against terrorist groups around the world. As we saw 
just 2 weekends ago with the raid against Abu Bakr al-Baghdadi, 
the U.S. continues to remove terrorist leaders around the 
globe. And over the past year, coalition operations against 
ISIS in Iraq and Syria has deprived the group of its so-called 
caliphate.
    Moreover, ongoing CT efforts across Africa, the Middle 
East, and South Asia continue to diminish the ranks of both al-
Qaeda and ISIS, removing experienced leaders and operatives on 
a regular basis. And interagency efforts to enhance our 
defenses at home have resulted in continued progress in 
safeguarding the homeland from terrorist attacks.
    There is indeed a lot of good news, but we need to be 
cautious because challenges remain. I will highlight and 
summarize just three.
    First, military operations have indeed bought us time and 
space as we address a global terrorist threat. But the diverse, 
diffuse, and expanding nature of that threat remains a 
significant concern.
    After 9/11, we were primarily focused on an externally 
directed attack capability emanating from a single piece of 
real estate along the Afghanistan-Pakistan border. Eighteen 
years later, as my colleagues have noted, we face a homegrown 
violent extremist threat, almost 20 ISIS branches and networks 
that range from tens to hundreds to thousands of people, al-
Qaeda and its branches and affiliates, foreign fighters that 
flock to Iraq and Syria from well over 100 countries, Iran and 
its proxies, and there is a growing terrorist threat from 
racially and ethnically motivated extremists around the globe.
    By any calculation, there are far more radicalized 
individuals now than there were at 9/11, and this highlights 
the importance of terrorism prevention.
    While some aspects of the threat can only be dealt with 
through kinetic operations, the resonance of the ideology will 
not be dealt with by military or law enforcement operations 
alone. The world has a lot of work to do in the nonkinetic 
realm to deal with radicalization underlying causes.
    The second challenge stems from terrorists' ability to 
exploit technology and attributes of globalization. They are 
good at it, and they are very innovative, as the Chairman 
suggested. We have seen the use of encrypted communications for 
operational planning; the use of social media to spread 
propaganda and transfer knowledge between and amongst 
individuals and networks; the use of drones and unmanned 
aircraft systems (UASs) for swarm attacks, explosive delivery 
means, and even assassination attempts.
    High-qualify fraudulent travel documents will increasingly 
undermine a names-based screening and vetting system and 
threaten border security. We will see greater use of 
cryptocurrencies to fund operations, and the potential 
terrorist use of chemical and biological weapons has moved from 
a low-probability eventuality to something that is considered 
much more likely.
    In many cases, terrorist exploitation of technology has 
outpaced the associated legal and policy framework needed to 
deal with the threat. Looking out 5 years, we are particularly 
concerned with the growing adverse impact encryption will have 
on our counterterrorism efforts.
    The third challenge I would highlight relates to a concern 
about potential complacency. Our whole-of-government approach 
to counterterrorism over the past 18 years has kept the country 
pretty safe. In our view, the near-term potential for large-
scale, externally directed attacks against the homeland has at 
least temporarily declined as a result of U.S. and allied 
actions around the globe. But as noted earlier, the threat 
itself does continue to metastasize and will require very close 
attention in the years ahead.
    In a crowded national security environment, it is 
completely understandable that terrorism may no longer be 
viewed as the number one threat to the country, but that begs a 
host of questions.
    First, what does the national risk equation look like as 
the country confronts a very complex national security 
environment?
    Second, how do we optimize CT resources in the best 
interests of the country when departments and agencies may have 
somewhat differing priorities?
    Third, if we are going to reduce efforts against terrorism, 
how do we do so in a manner that does not inadvertently reverse 
the gains of the past 18 years?
    These are all complicated questions that will require 
significant conversation, sophisticated conversation going 
forward, in both the Executive and Legislative branches.
    Thank you, Mr. Chairman. I look forward to your questions.
    Chairman Johnson. Thank you, Mr. Travers.
    I was not expecting an infusion of optimism here, and I did 
not get it. These are serious threats, and they are becoming 
more and more complex.
    One thing I noticed was lacking in all of your written 
testimony as well as your oral testimony, except for Under 
Secretary Glawe did reference the murder of the Mormon family, 
we did not talk about the really incredible events surrounding 
the capture of El Chapo's son and how the drug cartels 
completely took over and overwhelmed the law enforcement there. 
And we did not talk about--and this is the thing that was 
really missing. We did not talk about MS-13 and some of those 
gangs that are infusing our inner cities and are incredibly 
brutal.
    I guess I would just like to ask all three of you, either 
the reality, the potential for spillover of the drug cartel 
activities we saw with El Chapo's son, as we saw with the 
Mormon tragedy, but also just the gangs that we already know 
exist, and really the current situation. Is it growing? How 
much of a handle do we have on these gangs? I will start with 
you, Mr. Glawe.
    Mr. Glawe. Chairman Johnson, thank you for the opportunity 
to speak about this. I would say in regard to Mexico, there are 
areas in Mexico which I would characterize as ``lawless''--
``lawless'' being that the drug cartels run the infrastructure, 
the services, and their businesses, which is drug trafficking.
    Chairman Johnson. I have heard--and I do not want to name 
the figure, but I have heard a pretty high percentage of the 
number of communities are completely controlled by the drug 
cartels.
    Mr. Glawe. We have done an evaluation with other U.S. 
intelligence community partners, and I would be happy to come 
back in a closed session. I believe that is classified, and we 
can go through that. But we did do an evaluation similar to a 
counterinsurgency model that we have looked at in the war 
zones, and it is devastating right now. The drug interdiction 
numbers on the Southwest Border have increased statistically 
over the last 3 years, methamphetamine, fentanyl-based 
narcotics, opium-based narcotics, and cocaine. Their networks 
are sophisticated. They operate as a sophisticated business and 
enterprise with a supply chain, with covert and overt 
operatives. They are able to use extortion and assassinations 
at will. It is all based on money and moving people and goods 
to the Southwest Border and over the border into the United 
States. Those supply lanes and drug-trafficking routes are 
defined, and where they are not, there is war and fighting 
going on.
    Chairman Johnson. We held a hearing, and MS-13 was not 
motivated by drugs. It was something else.
    Director Wray, can you kind of speak to gangs in our inner 
cities?
    Mr. Wray. Certainly the FBI is spending a lot of our effort 
on gangs in the inner cities, not just MS-13, 18th Street, 
gangs like that that have a more national footprint, but also 
neighborhood gangs. If you talk to police chiefs around this 
country, you will find that in a lot of cities it is 
neighborhood gangs that are really terrorizing the communities. 
We view it as a threat that is unfortunately alive and well, 
and we are tackling it through a variety of different kinds of 
task forces, capacity building with State and locals.
    Chairman Johnson. What has been the trend over the last 10 
years?
    Mr. Wray. I think part of it is this trend toward the 
neighborhood gangs. MS-13 has continued to become a major 
factor, but we also, like I said, are increasingly worried 
about neighborhood gangs. We have found that when you in a 
coordinated way are strategic and prioritized in going after 
the threats, in a lot of communities what you will find is that 
if you prioritize, you will find that there, in effect, a tail 
wagging the dog, and it varies from city to city. But in one 
city it will be a particular neighborhood. In another city it 
might even be a six-block radius. In another place it might be 
a particular corridor or on a highway. In another place it 
might be a particular group, 20 or 30 people who are really 
driving the threat. But almost always, with good intelligence 
analysis, working together with our partners, you will find, 
again, that tail wagging the dog. If you are disciplined in 
going after it, you can have a dramatic impact, sometimes quite 
quickly, that lasts.
    Chairman Johnson. But are the number of gang members 
growing? Are the actions becoming more brutal? I read about 
things that are just horrific.
    Mr. Wray. Certainly MS-13 takes brutality to a whole other 
level. Violence there, as you know, Mr. Chairman, is 
essentially part of the rite of passage to join and move up the 
ranks. So there is a degree to which there is really almost 
violence for violence's sake on the part of some of these 
gangs.
    Chairman Johnson. But, again, are the numbers growing or is 
it flat? I am just trying to get a feel for the trend here.
    Mr. Wray. I am not sure I can give you the numbers of gang 
membership per se, but I would be happy to have someone follow 
up with and give you a more detailed briefing on that. I know 
the violent crime rate has gone down some in the last year or 
two; even though not dramatically, it has gone in the right 
direction.
    Chairman Johnson. In your testimony, your oral testimony, 
Director Wray, you were talking about the cyber theft, which 
is, I have heard, hundreds of millions of dollars. Primarily 
the big culprit there is China. I cannot personally envision a 
trade deal reining that in. I think we are going to have to use 
law enforcement, and I think we are going to have to use law 
enforcement from the standpoint of having global partners, for 
example, deny entry from management of these companies that we 
know are stealing our intellectual property.
    Can you just kind of speak to that reality?
    Mr. Wray. I think you are exactly right, that there is no 
one remedy that is going to deal with a threat that is this 
broad, this deep, this diverse, this vexing. What I would say 
is that there is a role for trade, there is a role for law 
enforcement, there is a role for diplomacy, there is a role 
for, in particular, as I think you and I have discussed in the 
past, building resilience in this country by working with the 
private sector and the academic sector.
    A lot of times, the most effective defense against the 
Chinese counterintelligence threat can be done by companies and 
universities, and other institutions in this country being 
smarter and more sophisticated about protecting themselves. So 
we are putting a lot of effort into that, being a little more 
forward-leaning than we might have been 5 or 6 years ago in 
terms of providing detailed information to try to help them, as 
I said, be part of the common defense that I think we all need.
    Chairman Johnson. Canada arrested the Chief Financial 
Officer (CFO) of Huawei on charges related to violation of 
sanctions. Is there a concerted effort to try and, again, deny 
entry, potentially arrest people from these companies that are 
stealing our intellectual property? Is there an organized 
effort globally with other Western democracies to do that?
    Mr. Wray. We are doing things with other Western countries 
and, frankly, non-Western countries because this is a threat 
that is being confronted by a lot of our allies.
    I will say that in some instances there are abuses of the 
visa process that we are trying to help address. That is 
obviously a State Department issue, but they are an important 
part of this fight as well.
    In other cases, there may be people who are engaged in 
intellectual property theft in a way that violates the terms of 
their contract, either an employment contract in a company or a 
research contract with a university, and they can be 
essentially kicked out on that basis. Sometimes that is a lot 
better solution than traditional law enforcement.
    Chairman Johnson. OK. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    There is no question the three of you have very difficult 
jobs and big responsibilities. Mr. Glawe, I want to discuss one 
of those very difficult jobs that the Department of Homeland 
Security has, which is, of course, what all three of you do: 
first and foremost, keep us safe. That is the fundamental 
objective, is to make sure that Americans are safe. But you 
have an added responsibility, and that is to move trade and 
commerce as efficiently as possible across the borders, and 
those two are often at odds with each other. Certainly in 
Michigan, it is something that we look at a lot, given the fact 
that we have two of the three busiest land crossings, border 
crossings, in the country. And so the facilitation of secure 
trade and travel is absolutely essential to my State, as well 
as many others. In order to support that mission, it is crucial 
that the DHS has a clear picture of the threats facing the 
Northern Border and between the ports of entry (POE) as well.
    So my question to you is: Could you briefly speak to I&A's 
work to assess the threats on the Northern Border to support 
the Department's Northern Border strategy as it exists today?
    Mr. Glawe. Sure. Ranking Member Peters, thank you for the 
question. I am a relatively unique witness for you; I was the 
head of intelligence for U.S. Customs and Border Protection 
(CBP) prior to assuming this role, and I occupied that position 
for almost 3 years. In that role with U.S. Customs and Border 
Protection, I led a team that did an assessment of the Northern 
Border threat, which I will be happy to share with the 
Committee. I have traveled to the Northern Border. I have been 
to Detroit. I have been to those land border crossings, and I 
have been to our intelligence center, which we stood up there.
    There is a vulnerability in the marine environment and the 
land environment. It is a porous border, and the terrain is 
tough, as it is in the Southwest Border, but different. We are 
looking at how we deploy our assets, which are primarily law 
enforcement, with the air and sensor capability to see 
individuals that may be crossing unlawfully. A lot of our 
relationship revolves around a partnership with the Canadians, 
the Canadian Border Service, and the Royal Canadian Mounted 
Police and their intelligence services, which are outstanding. 
We are very much relying on that partnership with each other, 
backed up by the good intelligence collection by our partners 
that goes on 24 hours a day.
    I would like to highlight the National Vetting Center, 
which is our global capability to identify at-risk individuals, 
which is also being expanded to cargo, that pose a threat to 
the United States, and that is in full operational capacity now 
through our National Targeting Center at U.S. Customs and 
Border Protection.
    But we are constantly evaluating the threat to the Northern 
Border by transnational criminal organizations (TCOs), 
terrorist organizations, and foreign intelligence officers.
    Senator Peters. Thank you.
    Mr. Wray, I mentioned this briefly in my opening comments, 
but your agency has not provided a single document in almost 6 
months now to a letter that Chairman Johnson and I authored 
dealing with domestic terrorism. This is a bipartisan letter. I 
think we were very careful in terms of the scope of it, that it 
is not overly broad but hopefully allowed us to have the kind 
of information necessary for us to provide the kind of 
oversight, particularly on something as serious as domestic 
terrorism and white supremacist action in particular, which you 
have highlighted as something that is growing.
    To me--and I think I speak for my Chairman as well--that is 
unacceptable when you have a joint letter from a Ranking Member 
and the Chairman, bipartisan. My question to you is: Do you 
require a subpoena to respond to routine document requests from 
this Committee?
    Mr. Wray. No. Second, I would tell you, Ranking Member 
Peters, that we have tried very hard to be responsive to this 
Committee. I will say that I know that the Department, of which 
we are, of course, a part, provided a long written response. I 
know that we sat down with your staff, Committee staff, and 
provided a verbal briefing, which was very helpful on our end 
in understanding better the purpose and the scope and the 
intent of the request. I also know that we have been providing 
monthly domestic terrorism reports to the Committee staff, 
among others.
    But having said that, the most important thing to me is to 
make sure that we are being responsive, and I will direct my 
staff to drill in and figure out how we can be more responsive 
and more forthcoming in response to your requests.
    Senator Peters. So you will be more responsive than not 
responding at all?
    Mr. Wray. As I said, Senator, I think we have been 
responsive.
    Senator Peters. You talked about the Committee response. We 
actually talked about this last week. What we got from DHS were 
basically publicly available documents. I will tell you our 
staffs are pretty good at looking at publicly available 
documents, so that is not real helpful in our oversight role. 
These were very specific questions that we would expect a 
response. We believe that we should probably have as a 
Committee--and that is my question. Do you think the Committee 
should have less access to documents than just a general FOIA 
request? That is basically what we are seeing here.
    Mr. Wray. Senator, I cannot speak for DHS' response----
    Senator Peters. No. This is for the FBI.
    Mr. Wray. But from the FBI, as I said, I do not think 
providing verbal briefing, the written response from the 
Department, and the monthly reports is no response at all.
    The point, though, from my perspective, is that I want to 
make sure we are addressing your concerns, so I do not want you 
to take any of my responses suggesting that I am not going to 
direct my staff to drill back down and make sure that we are 
doing everything we can to be cooperative.
    Senator Peters. I appreciate that. Could we get a 
commitment by the end of the week that we would have that?
    Mr. Wray. We will get some kind of response by the end of 
the week. I need to get more information about what is missing 
and what is still needed.
    Senator Peters. I appreciate that, and I hope you will have 
prompt attention to that.
    According to the FBI, domestic terrorists killed 39 people 
in fiscal year (FY) 2019, making it the most deadly year for 
domestic terrorism since the 1995 Oklahoma City bombing. My 
question to you, Mr. Wray, is: How would you characterize the 
domestic terrorist threat posed by White supremacists?
    Mr. Wray. So first I would say that domestic terrorism 
generally, in particular, self-radicalized typically lone 
actors here, represents a serious, persistent threat. I think 
we had about 107 domestic terrorism arrests in fiscal year 
2019, which is close to the same number that we had on the 
international terrorism front.
    Within the domestic terrorism group, we have about--at any 
given time, the number fluctuates, but at any given time, we 
have about 1,000--sometimes it is closer to 900, sometimes it 
is above 1,000--domestic terrorism investigations. A huge chunk 
of those domestic terrorism investigations involve racially--
motivated violent extremist-motivated terrorist attacks, and 
the majority of those, of the racially--motivated violent 
extremist attacks, are fueled by some kind of White supremacy. 
I would say that the most lethal activity over the last few 
years has been committed by those type of attackers.
    Senator Peters. I am out of time, but I will follow this in 
the second round. Thank you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chairman. Thanks 
to you and Ranking Member Peters for convening this hearing on 
threats to our homeland. Thank you to all three of our 
witnesses not only for being here today but for your service to 
our country, and I hope you will carry back with you to the men 
and women you lead our sincere thanks from a grateful country 
for all they do to keep us safe.
    Director Travers, I wanted to start with a question to you. 
Last month, I traveled to Afghanistan and Pakistan and heard 
firsthand the concerns of our military and embassy personnel 
about the growing and very real threat of ISIS-K, the ISIS 
affiliate in 
Afghanistan. I heard clearly that ISIS-K threatens not only 
U.S. forces in Afghanistan, but also has designs on striking 
the U.S. homeland.
    You said last week that there are more than 20 ISIS 
branches globally, some of which are using sophisticated 
technologies such as drones to conduct operations. Despite our 
key victories against ISIS in Syria and Iraq, ISIS as a global 
terrorist organization remains a deadly threat to the United 
States.
    Director Travers, we know that ISIS-K and other affiliates 
of ISIS want to strike the U.S. homeland. Please tell us more 
about their ability to do this and what we are doing to 
mitigate this threat.
    Mr. Travers. Thanks for the question, Senator. Yes, so of 
all of the branches and networks of ISIS, ISIS-K is certainly 
one of those of most concern, probably in the neighborhood of 
4,000 individuals or so. We certainly share the concerns of 
both the U.S. military and the embassy in theater. They have 
attempted to certainly inspire attacks outside of Afghanistan. 
They attempted last year to conduct a suicide attack in India. 
It failed. They have actually tried, a couple years ago, I 
think, to inspire an attack against New York that the FBI 
interrupted. There was an attack in Stockholm in 2017, I 
believe, that killed five people. So they certainly have a 
desire and the propaganda would indicate that they want to 
conduct attacks outside of Afghanistan, thus far relatively 
limited.
    I would say that we saw attack claims by ISIS-K ramping up 
throughout 2016, 2017, and 2018, somewhat lower the beginning 
of this year, although now I think we are looking at about an 
attack a day or so. Interestingly, only about an hour and a 
half ago, they were the latest ISIS branch to declare 
allegiance to the new head of ISIS.
    Senator Hassan. Thank you for that.
    Director Wray, I have a question for you about ransomware, 
but just before I do, I want to thank your team in New 
Hampshire. We recently had a field hearing about the threats to 
our houses of worship, in particular from domestic terrorism, 
and supervisory senior resident agent Michael Gibley was very 
helpful, and I think our faith leaders have been very 
encouraged by his work with them. So thank you and him for 
that.
    As to ransomware, we are seeing the impact of it across the 
country, including an attack in my home State of New Hampshire. 
Threat actors target every aspect of our communities from 
health care providers to our small businesses and even to State 
and local governments themselves, as they did in New Hampshire.
    Last week, I talked with Cybersecurity and Infrastructure 
Security Agency (CISA) Director Krebs about what the Department 
of Homeland Security is doing to assist State and local 
entities facing ransomware attacks. Director Wray, what is the 
FBI doing to address the threat of ransomware attacks on our 
communities? Is it tracking the number of ransomware attacks on 
our country? How is the FBI coordinating with the Department of 
Homeland Security in these efforts?
    Mr. Wray. So, first off, Senator, I appreciate the feedback 
on the meeting up in New Hampshire. On ransomware specifically, 
I think what we are seeing is a shift to more and more targeted 
ransomware attacks, more and more targeting, for example, 
municipalities, and there are a variety of reasons why 
municipalities are particularly vulnerable victims to 
ransomware attacks.
    We are also seeing more enterprise-level ransomware attacks 
where it essentially affects every computer in the 
organization.
    Senator Hassan. Right.
    Mr. Wray. One of the things that we are trying to do 
whatever we can is figure out through our unique role as both a 
law enforcement agency and an intelligence agency. There have 
been times where, for example, we are able to reverse-engineer 
a decryption key. So I can take, for example, we had a case in 
the Northwest, for example, a small business, 600 people, 
crippling ransomware attack, potentially all those people about 
to lose their jobs, the company to go under. But because of our 
investigative work, we were able to reverse-engineer a 
decryption key. They did not have to pay the ransom. They got 
their systems back online, and a lot of nice thank you notes 
from those 600 employees.
    Senator Hassan. I bet.
    Mr. Wray. As far as working with DHS, the basic lanes in 
the road, if you will, we work very closely together. The FBI 
is the lead on the threat, and DHS is the lead on the asset. 
And essentially we work together in that respect.
    Senator Hassan. It is something that I think in a lot of 
the work we have done as a Committee we are hearing more and 
more concern from our local stakeholders about it and also 
really want to help all of the various agencies coordinate and 
share information as effectively as possible.
    Director Travers, I wanted to go back to the issue of 
domestic terrorism. In the aftermath of 9/11, the Federal 
Government built a robust and capable counterterrorism 
architecture, establishing new departments, centers, and 
counterterrorism information-sharing mechanisms to support 
State and local partners and address a foreign terrorist threat 
unlike any we had seen before.
    Today, 18 years later, we face a surge in domestic 
terrorism--and you will hear it from everybody on this 
Committee; you have heard it already in some of the questions--
including rising threats against houses of worship. If we are 
to prevent domestic terrorist attacks, we have to start 
treating these incidences as seriously as we did when al-Qaeda 
and other foreign terrorist organizations have threatened or 
attacked us after 9/11.
    Director Travers, the National Counterterrorism Center was 
created after 9/11 to respond to threats from al-Qaeda. The 
center is responsible for ensuring that we effectively 
integrate and share terrorist-related information in order to 
prevent attacks. Can you share your thoughts on the current 
State of domestic terrorism information sharing? What does the 
U.S. Government need to do amid this rising threat to ensure 
that intelligence is not missed and that it gets to the people 
who need to know it?
    Mr. Travers. I will start, but I think probably pass it to 
Director Wray. The Intelligence Reform and Terrorism Prevention 
Act that created NCTC, written by this Committee, gave a number 
of statutory responsibilities to NCTC in the realm of 
international terrorism. There are references in the 
legislation to domestic terrorism, but quite clearly, the 
Bureau would have the lead, and I view NCTC as being in 
support. So we have, I think, a lot of things we can do, and 
our staffs are working on sort of laying out the parameters, 
but things like addressing issues of radicalization and 
mobilization, kind of left of boom kinds of questions, that 
NCTC has done a lot of work with our partners on the 
international terrorism side. I think it is pretty clear that 
the processes look a lot alike in terms of using social media 
and the Internet and so forth. We are broadening our aperture 
there, and collectively writing at the unclassified and For 
Official Use Only (FOUO) so we can get that kind of information 
to our State and local partners.
    Where I think NCTC has particular value-add is in some 
senses ``domestic terrorism'' is a bit of a misnomer because of 
the international connections, and so we work a great deal with 
our partners around the globe because everyone is struggling 
with this problem right now and trying to figure out how to 
deal with it. And so we can bring a lot of analytic horsepower 
and potentially collection to the international problem set and 
then in regard help the Bureau.
    Senator Hassan. Thank you. I see that I am over time. I do 
not know if the Chair would like Director Wray to comment now 
or take it up another time.
    Chairman Johnson. Briefly.
    Mr. Wray. I guess the short version would be that, in 
addition to everything that Director Travers has said, we are 
looking very hard at some trend of, for example, White 
supremacists or neo-Nazis here connecting through social media 
online with like-minded individuals overseas, and in some cases 
actually traveling overseas to train. As Director Travers said, 
we are engaging a lot with our five Immigration and Customs 
Enforcement (ICE) partners and others like that as we are 
comparing notes on this threat.
    Senator Hassan. All right. Thank you.
    Thank you, Mr. Chair.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you. Good afternoon. As you know, our 
country is facing many threats, so I thank all of the witnesses 
for being here today.
    Director Wray, I want to start by asking you about Rudy 
Giuliani, a close outside adviser and counsel to the President. 
Have you communicated with Mr. Giuliani since you were 
nominated as the FBI Director?
    Mr. Wray. No.
    Senator Harris. And do you know if Mr. Giuliani holds any 
security clearance of any kind?
    Mr. Wray. I do not know the answer to that.
    Senator Harris. Has Mr. Giuliani made any formal 
representations at least to the Justice Department or the FBI 
regarding his foreign relationships, business dealings, or 
conflicts of interest?
    Mr. Wray. I am not sure there is anything I could say on 
that here.
    Senator Harris. Is that because this is a confidential 
matter or because you do not know or because they do not exist?
    Mr. Wray. That is in part because I do not know the answer 
for the whole FBI.
    Senator Harris. What is the other part?
    Mr. Wray. If there were something that was shared with some 
other part of the FBI that I am not aware of, it might well run 
afoul of some of the other Issues that you mentioned.
    Senator Harris. OK. Given the close relationship between 
the President and Mr. Giuliani, has the FBI told the President 
whether his counsel is a potential counterintelligence threat?
    Mr. Wray. I do not think there is anything that I can say 
on that subject.
    Senator Harris. I recall that you have testified in the 
past that you have taken an oath to defend the Constitution, 
and I admire the way that you have said that, and I do believe 
that to be true. Do you believe that your first oath is to the 
Constitution or to the President?
    Mr. Wray. My loyalty is to the Constitution and to the 
people of this country.
    Senator Harris. If an American acting on behalf of a 
foreign person was seeking to influence or interfere with an 
American election, would the FBI want to know about that?
    Mr. Wray. Again, I do not want to be misunderstood as 
wading in and commenting on specific recent events, but just as 
a general matter, any information about potential interference 
with our elections by a foreign government or by anybody else 
is something the FBI would want to know about.
    Senator Harris. In sworn testimony before the Senate 
Appropriations Subcommittee in June, you said that you ``could 
not think of an instance where the President has directly or 
indirectly asked you to open an investigation of anyone.'' As 
of today, can you confirm or deny whether the President has 
ever asked you to open an investigation as to anyone?
    Mr. Wray. Again, I cannot think of an instance in which 
that has happened. We have certainly had discussions about, for 
example, domestic terrorism threats, foreign intelligence 
threats, nation-states, things like that, but those have tended 
to be more about a threat in the aggregate as opposed to a 
specific individual or anything like that.
    Senator Harris. Has the President or anyone on his behalf 
suggested that the FBI start, stop, or limit the scope of any 
investigation?
    Mr. Wray. Not that I can think of.
    Senator Harris. In your view, would it be improper for the 
FBI to launch, limit, or stop a criminal investigation at the 
request of the President or anyone at the White House?
    Mr. Wray. Again, I am not going to wade into specific 
people's conversations, but what I will say is that the FBI's 
obligation and my obligation and the obligation that I expect 
of all 37,000 men and women of the FBI is that we are going to 
conduct properly predicated investigations, continue properly 
predicated investigations, and complete properly predicated 
investigations.
    Senator Harris. So without referring to any specific 
investigation, in your view, would it be improper for the FBI 
to launch, limit, or stop a criminal investigation at the 
request of the President or at the request of anyone at the 
White House?
    Mr. Wray. I think we should conduct our investigations 
based only on the facts and the law and the rules that govern 
us and nothing else.
    Senator Harris. OK. I am going to take ``nothing else'' as 
meaning that you believe it would be improper to be asked by 
the White House or the President to engage in such conduct. Is 
that correct?
    Mr. Wray. Again, I am not going to wade into hypotheticals, 
but I think we are saying the same thing in the sense that I do 
not think----
    Senator Harris. We are talking about rules and ethics.
    Mr. Wray. I do not think that the FBI should be concluding 
or closing an investigation for any improper purpose.
    Senator Harris. OK. I am going to ask you one more time, 
and you will either answer it or you will not, clearly. But I 
am asking you about what is ethically appropriate. Would it be 
ethically appropriate to launch, limit, or stop a criminal 
investigation at the request of the President or anyone at the 
White House?
    Mr. Wray. I think there should be no opening of an 
investigation based on anything other than the facts and the 
law. That is my answer.
    Senator Harris. Thank you. To your knowledge, has the White 
House or any member of the Administration ever directed or 
suggested that Attorney General Barr or any other member of the 
Justice Department start, stop, or limit the scope of a 
criminal investigation?
    Mr. Wray. I cannot speak to Attorney General Barr's 
communications with others.
    Senator Harris. During your time at the Justice Department 
and given your extensive and noble career, have you ever 
encountered suspects or defendants who tried to intimidate 
witnesses?
    Mr. Wray. Absolutely, and prosecuted some.
    Senator Harris. Why is witness intimidation a threat to the 
pursuit of justice?
    Mr. Wray. Why isn't witness----
    Senator Harris. Why is it?
    Mr. Wray. Oh, why is it. I was going to say I happen to 
believe that witness intimidation is a threat to--because 
investigations and prosecutions should be about the truth and 
pursuit of the truth, and if witnesses who have firsthand 
information cannot and do not come forward, then that pursuit 
of the truth is frustrated and impeded.
    Senator Harris. In June 2019, it was reported that hundreds 
of law enforcement officers around the country are in active 
members-only extremist Facebook groups. These groups include 
White Lives Matter, Ban the NAACP, Death to Islam Undercover. 
Can you tell me what work your agency has done to investigate 
any of these cases and to what degree of success?
    Mr. Wray. I am not aware of the specific report that you 
are referring to. As I think I mentioned in response to one of 
the earlier questions, we do have about 900, say, give or take 
at the moment, domestic terrorism type investigations. That is, 
of course, not counting our hate crimes investigations. And a 
huge chunk of those involve some degree of what one might call 
``White supremacist ideology'' as the extremist ideology that 
is motivating the crime that we are investigating.
    Senator Harris. Thank you, Director.
    Mr. Wray. Thank you.
    Senator Harris. Thank you for your service.
    Chairman Johnson. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. I want to thank each of you for being here 
today. I want to thank Chairman Johnson and Ranking Member 
Peters for putting this together.
    My focus today is on the FBI's ability to share domestic 
terrorism information and other violent information with local 
FBI offices and State and local law enforcement.
    Let me start by saying that the men and women of the FBI 
are dedicated public servants. They serve this country 
selflessly with no desire for praise or public recognition. I 
understand that the FBI gets very little credit for their 
success, nor do they seek credit. I understand it is only the 
few instances of failure that get public attention and 
scrutiny.
    The FBI deserves praise for the work that they do every day 
to keep us safe, but I also have concerns with the failures 
that occurred before a series of shootings in Florida and the 
lack of after-action transparency on the part of the FBI.
    In the days following the senseless attack at Marjory 
Stoneman Douglas High School in Parkland, Florida, I learned of 
repeated failures by the FBI to properly investigate and act on 
specific tips received about the shooter in the months leading 
up to the attack. Weeks before the shooting, a detailed warning 
about the shooter was received by the FBI National Call Center. 
The warning was never passed on to the South Florida field 
office for an investigation or to any State or local law 
enforcement.
    Months before that, the FBI was warned about the shooter 
through a comment on a YouTube video in which someone with the 
shooter's name stated, ``I am going to be a professional school 
shooter.'' I understand the FBI gets a high volume of tips, but 
it appears the FBI did nothing with this detailed information 
of an imminent threat.
    We are also aware of similar instances of pre-attack 
notifications received by the FBI regarding other attacks in 
Florida, including at the Fort Lauderdale airport, the Pulse 
nightclub in Orlando, and a Tallahassee yoga studio.
    Since that time, I have repeatedly sought information from 
you, Director Wray, regarding the steps you have taken to hold 
accountable those within your agency responsible for those 
failures. I asked for two things: First, has anyone been held 
accountable? Second, what changes have been made to prevent 
this from happening again? So far, I have gotten very little 
information. As Governor when this happened, I asked for an 
explanation, and I was told nothing. I got no information back. 
As a U.S. Senator, I put together a letter and asked for 
information on accountability and what changes have been made. 
Again, I got little information.
    Mr. Chairman, I want to enter in the record the 
correspondence I sent and received.\1\
---------------------------------------------------------------------------
    \1\ The letter submitted by Senator Scott appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Scott. The Parkland families have also told me that 
they have not gotten answers. So I am asking today: Has anyone 
from the FBI been held accountable for the failures that 
followed the attack at Marjory Stoneman Douglas? How have they 
been held accountable? And what changes have been made?
    The attack was 100 percent the fault of an evil person. It 
is not the responsibility of the FBI, and people make mistakes. 
But the failure to act on specific information given to the FBI 
that could have stopped this evil person requires action to 
correct the errors.
    I recently introduced the TIPS Act, which will require the 
FBI to be more proactive with sharing information with local 
and State officials. I would also like your feedback on that 
proposal, but, first, if you could talk about Parkland.
    Mr. Wray. Thank you, Senator. First let me say that there 
is no issue that tears up inside more than a threat to kids in 
this country, whether it is the kind of example that you are 
describing or any number of others. And that was a 
heartbreaking day for everybody in the FBI, and I hope you know 
that, and I mean that personally.
    Second, we have made extensive changes. I immediately after 
the Parkland shooting dispatched a large special inspection 
team into CJIS, which is where our public call center is. As a 
result of that, a number of changes have been made, and without 
going into all the detail, let me just give you a few of the 
key points.
    First, we have increased staffing significantly, both at 
the line level and the supervisor level.
    Second, we have enhanced the training significantly.
    Third, we have enhanced the technology significantly.
    Fourth, we have added more oversight.
    Fifth--and this goes to parts of your question--we put in 
place an entirely new leadership team with a wealth of 
experience, and we have made other personnel changes, some of 
them disciplinary in nature. Partly because of pending 
litigation against us and because of privacy implications, 
there is a limit to how much detail I can really go into on the 
personnel front, but there are significant changes that have 
been made.
    I actually have personally gone out there not once but 
twice, first to see what it was like before, and second, now to 
see how it has changed since then. I have actually sat in the 
midst of the call operators, put on the headset, and listened 
as they dealt with the calls and watched how it happens. I can 
tell you that there is an incredible amount of really good work 
going on down there.
    You mentioned the volume issue. I think it is important for 
people to understand that on any given day our call center up 
there gets more than 3,000 tips. Of those 3,000 tips, about 60 
a 
day--that is 60 tips a day--are potential threats to life. So 
that is a huge amount of wheat having to get separated from the 
chaff there. Of the 60, probably about 80 percent of them have 
no Federal nexus whatsoever, and so we are looking at ways--and 
I know that that is the goal now coming around to your 
legislation. That is a goal that I think we share, which is how 
can we get the right information--that is the key word, the 
``right'' actionable information, that wheat and not the chaff, 
to our State and local partners as far as possible. And there 
is something that we have in place that I would love to talk to 
you more about called ``eGuardian,'' which is a system that has 
been in place for a while that we have significantly enhanced, 
and the key takeaway from that, Senator, is that it would dual-
route, so simultaneously go straight from the call center not 
just to local field office but also the State Fusion Center or 
the equivalent.
    We have already had a number of instances--and I could go 
through a number of them here--where some threat comes in, and 
within hours, using that approach, within hours we have had an 
arrest.
    I think we are very encouraged by the direction it takes, 
but make no mistake, this is one of the hardest things law 
enforcement has to deal with today, and we are doing our best, 
and we are going to keep working at it.
    Senator Scott. So can you explain--so here is why I never 
get a response, OK? First off, I do not think you have an easy 
job. I know it is hard, and you get lots of tips. I get all 
that. But I have never heard that--and I do not get why 
somebody cannot say, ``A person was disciplined,'' ``They were 
held accountable,'' something. I am a business guy. In 
business, you have to hold people accountable if somebody made 
a mistake.
    If somebody said, the person's name, ``I am going to be a 
professional school shooter,'' that is pretty actionable, you 
would think, right? When somebody calls just a few weeks before 
a school shooting and they give detailed information, I mean, 
you have to believe somebody got held accountable. And to this 
point, I mean, the Parkland families have never been told that 
anybody was held accountable, and it is always this amorphous, 
``Well, we cannot,'' it is privacy or something like that. 
There has to be something, a better answer than that, because 
it just seems, if you take their side, you would say nothing 
happened to them. Nobody got held accountable.
    Mr. Wray. Like I said, to me the privacy act issues and the 
pending litigation are things that I do have to take seriously 
in responding to your question, and I am trying to lean in in 
answering your question. I can tell you that there were two 
individuals principally involved with the call. We have had one 
individual that has been reassigned as a result of that 
inspection report and one who is, I guess the best way to put 
it is, no longer with the FBI. I really cannot go into more 
detail than that. But I would tell you that the more important 
thing is it should not be anybody's impression, I can assure 
you, that nothing has been done. We have made massive changes 
out there, and I know we have invited you and your staff to 
come out and see it, and I would welcome that. I think you 
would be encouraged by what you have seen out there.
    Senator Scott. All right. Thank you.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Let me just say thank you all for your 
testimony. I thought you gave excellent testimonies, and we 
appreciate that. Thank you for being here today and for the 
work that you do.
    I passed Senator Sheldon Whitehouse. He was leaving as I 
was coming in. He is not on the Committee, so he did not get to 
ask questions, but he was going to ask if he could. He wanted 
to ask you about responding to the questions for the record 
(QFRs), Mr. Wray. I would just ask you to check with your team, 
just make sure that you are being responsive there, OK? He 
asked me to mention that, so I did on his behalf. I know you 
probably get a lot of those.
    I was privileged to be the Chairman of this Committee a few 
years ago. Tom Coburn of Oklahoma was our Ranking Member, and 
it was during the Obama Administration, and we had a hearing or 
two with folks essentially from Homeland Security, Mr. Glawe, 
and the issue was Swiss cheese. You might say, ``Why would it 
have been Swiss cheese?'' Because the top leadership in 
Homeland Security kind of looked like Swiss cheese. We had a 
number of positions that were vacant, leadership positions. We 
had many others that were filled by people in acting capacity 
and had never been Senate-confirmed. We are happy that you are 
here and others that are filling in, but if he were here, he 
would probably say he had the same concern with all these 
people in acting positions.
    I asked my staff to give me a number, and they said----
    [phone rings]. That is Coburn right now. He is everywhere. 
I understand that when Acting Secretary McAleenan leaves--and I 
think he has been terrific. I hate to see him go. But I 
understand that 11 of the 18 positions requiring Senate 
confirmation will be vacant.
    I will say that again: 11 of the 18 positions requiring 
Senate confirmation will be vacant. One of the reasons that Tom 
Coburn and I worked hard, along with the people on our 
Committee in those days, was because the Department of Homeland 
Security had the worst morale--it is measured about every 2 
years. It had the worst morale of all the departments, major 
departments of government. One of the reasons why was because 
of that. And the last 2 years, when they finished up and that 
administration left, I remember talking to Jeh Johnson, and he 
told me that the last measurement--we have this measurement 
every 2 years where an independent entity measures the morale 
of the major departments, and the Department that made the most 
improvement in that 2-year period was Homeland Security. So it 
really does make a difference in more ways than we might 
expect.
    But I would ask each of you--and I will just start with 
you, David--could you speak to how the lack of Senate-confirmed 
leadership at the highest levels of DHS affects the interagency 
work that you all do to keep our homeland secure? This would be 
just for you, Secretary Glawe. How can we in Congress push the 
President to nominate qualified individuals in order to ensure 
the Department is able to carry out its vital mission? Please.
    Mr. Glawe. Senator, thank you for bringing that up. With 27 
years in law enforcement and a career official, starting as a 
Houston police officer, it is an honor and a privilege to serve 
with the men and women of the Department of Homeland Security. 
They do an incredible mission. The career service members have 
carried on this mission with an incredible professionalism, and 
I am happy to say our employee viewpoint survey continues the 
upward trajectory. Even though some of these Senate-confirmed 
positions are not filled, we continue our upward trajectory, as 
well as in my office which has seen some of the biggest 
increases in morale this year, and your staff will have access 
to that.
    I would say that we have two officials that are pending 
confirmation: our Under Secretary of Policy and our Chief 
Financial Officer. We would appreciate their speedy 
confirmation.
    As one of the longest-serving Senate-confirmed--and you 
unanimously confirmed me--I appreciate that by the Senate and 
this Committee as well.
    Senator Carper. All right. Would either of the other 
witnesses care to comment on this? Please.
    Mr. Wray. Senator, I would just say, without speaking to 
DHS' leadership vacancies, that we work very closely with the 
men and women of DHS across all their different sub-agencies 
every day on our task forces. They are fantastic public 
servants and great partners, and we are proud to stand with 
them.
    Senator Carper. All right. Thank you.
    Mr. Travers. The same would be true of NCTC. I have many 
people embedded at DHS, and I have many I&A officers that work 
for me, and it is a very strong partnership.
    Senator Carper. All right. I was out of the room for a 
little bit. I do not know if this has already been raised, but 
I want to talk a bit about our withdrawal of U.S. troops from 
northeastern Syria. Something that troubles me deeply. I gave a 
speech on the floor, I think it was last Thursday, close of 
business, and I mentioned it. It was something like 11,000 
Kurdish lives had been lost in the battle against ISIS. I have 
a friend, you ask him how he was doing. He says, ``Compared to 
what?'' Eleven thousand of their lives and a relative handful 
of ours. Every one of those is dear and precious, but I just 
want to ask, and we will start--let us see. I guess I am going 
to ask each of you this. We will start with you, Mr. Travers. 
But can you just please speak about the effects that pulling 
U.S. troops out from northeastern Syria will have on our 
Kurdish allies, please?
    Mr. Travers. I believe it is true that General Maxloum and 
the Syrian Democratic Forces (SDF) have been very close allies. 
They have been incredibly important in terms of providing 
intelligence over the years. We were heartened by both the 
President's and the Secretary of Defense's statement that the 
U.S. forces that will remain in Syria will have a continuing 
counterterrorism mission as well as the oil, and that there 
will be continued engagement with the SDF.
    This remains a very important counterterrorism objective to 
us because they are guarding many different prisons with both 
foreign fighter and Iraqi and Syrian ISIS fighters. And so that 
relationship really needs to continue.
    Senator Carper. All right. And just a simple yes or no. 
Were you all consulted on this matter by the White House?
    Mr. Travers. I was not, but it would not necessarily be the 
case that I would be.
    Senator Carper. All right. Thanks.
    Same question, if you could, Mr. Wray. Could you just talk 
a little bit about the effects that pulling out U.S. troops 
from northeastern Syria will have on our Kurdish allies? I know 
this is a little bit out of your wheelhouse, but take a shot.
    Mr. Wray. Well, parts of it are in our wheelhouse. In 
particular, we are obviously concerned about potential 
resurgence of ISIS if certain fighters in particular were to 
escape or be released. We will say that the biggest threat to 
the homeland, that is, the biggest ISIS-related threat here, in 
many ways in the online inspired threat, in effect the virtual 
caliphate. So that threat is something that we have been all 
over with or without the presence in Syria.
    One of the things that we have done, we, FBI, along with 
others, working with our partners, anticipating the day where 
we might not be there, is biometric enrollment on the 
battlefield in effect, in order to put us in a position where 
fingerprints, DNA, et cetera, are available and can be shared 
with our allies and others so that in the event that fighters 
end up spreading out for one reason or another, we have a 
better chance of intercepting them before they do harm.
    Senator Carper. All right. Mr. Secretary, same two 
questions, if I could, and then I will be done. The same two 
questions, if you could, Mr. Secretary. Were you consulted on 
this matter by the White House? Just a yes or no is fine.
    Mr. Glawe. Sure, Senator, and no, I was not, and I would 
not be in my current role. But what I would say is as a follow-
on to what Director Wray said, our partnership with obtaining 
the biometrics from the ISIS fighters, al-Qaeda fighters, any 
terrorist organization, is critical for our vetting program and 
our relationships with the intelligence services, our law 
enforcement services abroad, and our foreign partners. But the 
disbursement of terrorism is global. Southeast Asia, northwest/
East Africa, Middle East are all threats from ISIS, al-Qaeda, 
Al-Shabaab and others, and affiliates. It is how we get that 
information and we vet them. So if the refugees or migration 
flows out of Yemen or Syria are large, we have to have the 
biometrics to collect to make sure they do not come here, to 
run them against systems to make sure they are not terrorists, 
criminals, or foreign intelligence officers.
    So it is really critical, that information sharing and that 
vetting process we have to make sure bad things or bad people 
are not coming to the United States.
    Senator Carper. Thanks so much, and thank you all for your 
service, your leadership, and the people you lead.
    Thank you.
    Chairman Johnson. Senator Portman.

              OPENING STATEMENT OF SENATOR PORTMAN

    Senator Portman. Thanks to the three of you for some great 
testimony today and, most importantly, for what you and the men 
and women who are in your organizations do every day to help 
keep us safe.
    I noticed in your opening statement, Director Wray, you 
talked about the Thousand Talents Program, and as you may know, 
the Permanent Subcommittee on Investigations (PSI) with Senator 
Carper and others, we are in the process of looking into that 
issue and have done a series of hearings on related items, 
including on the Confucius Institutes. In fact, we did a 
Confucius Institute report that indicates that there are 
limitations that China places on the activities here, including 
censorship, as an example, not allowing the academic community 
here to discuss topics they believe are politically sensitive, 
such as, the Tiananmen Square uprising or something like that.
    But as you say, it goes well beyond Confucius Institutes. 
You said that China is abusing the Thousand Talents program, I 
wrote. You also said that the FBI has about 1,000 cases, 
coincidentally, investigating technology transfer. And you said 
that universities should be smarter about defending themselves.
    I guess my question would be: What efforts has the FBI 
taken to inform the higher education community about this 
threat? And what has your response been?
    Mr. Wray. I think you have put your finger on an important 
issue. The role of academia in our country, especially given 
the amount of taxpayer-funded research there is in particular, 
is a key component to this counterintelligence threat. So in 
addition to investigations--and I cannot give you the number 
out of the 1,000 that involve universities and, in particular, 
graduate students and researchers, but certainly it is a 
significant number. But in addition to the investigations, we 
are much more actively engaged with major universities in 
encouraging them and informing them so that they can take 
appropriate action voluntarily but robustly to guard against 
the threat.
    As far as the reaction we have gotten, it varies. But I 
have been actually quite encouraged by quite a number of 
universities, which a few years ago would not have wanted to 
meet with the FBI under any circumstances, much less in the 
kind of partnership way that is occurring now, including very 
good responsiveness from Ohio State. I have met with them. We 
had an academic summit in FBI headquarters just about a month 
ago where we brought in chancellors and others from 
universities all across the country, a whole bunch of our SACs, 
and kind of briefed them on some of the threats and had 
engagement about how we can work more constructively together 
to help them defend themselves.
    Senator Portman. Our information is that Ohio State 
certainly, and some other schools, have expressed their 
interest in working even more with you and appreciate what has 
been done. They also, I think, are not providing us the 
transparency we need to know whether there is a problem. Would 
you agree with that?
    Mr. Wray. I would probably let Ohio State speak for itself 
in terms of its own transparency, but----
    Senator Portman. I am not talking about Ohio State. I am 
talking about just in general. We found out, as you may know, 
in our investigation as an example that about 70 percent of the 
schools were not properly reporting the foreign government 
payments that they were receiving with regard to the Confucius 
Institutes. So the transparency, although some of it is in law 
already and not being followed, is not adequate in our view. Is 
that your view?
    Mr. Wray. I think it is fair to say there is a lot of room 
for improvement, but we are seeing improvement.
    Senator Portman. Let me talk about another issue that is a 
national security threat for our entire country, but Ohio is 
particularly hard-hit, and that is the drug crisis and the 
epidemic of overdoses and deaths. We know that the Southern 
Border has lots of challenges. One is certainly the drug issue. 
We know that crystal meth, which is the new drug that is 
causing havoc in our communities in Ohio, but also heroin and 
cocaine, comes almost exclusively across that Southern Border. 
And my question to you is really about what is happening. You 
see a significant reduction in terms of crossings. I am looking 
at some data here that compares last month to the month of May 
as an example, almost a one-third reduction in crossings, or at 
least in apprehensions, which would indicate crossings.
    So the number of people coming over has slowed 
considerably, still a significant issue but not like it was. 
And yet from all indications we have, the drug flow has not 
been reduced, even though many have linked some of the same 
traffickers who bring people across as bringing drugs across.
    Can you speak to that and talk about how these drugs are 
coming over? Secretary Glawe, if you would like to speak to 
that, that would be helpful to this issue. But what more can we 
do, of course, on the border? But, also, what is the 
relationship between people crossing and drugs crossing?
    Mr. Glawe. Senator, thank you for the question. Just to 
give you the numbers from 2017 to 2019 so you know what we are 
dealing with on the narcotic flows, we have seen a 40-percent 
increase in cocaine from seizures at the Southwest Border. We 
have seen a 20-percent increase in fentanyl. We have seen a 30-
percent increase in heroin. And to your point, we have seen a 
200-percent increase in methamphetamine, and that is in 
addition to the emergency on the border we have with the 
migrant flows and Border Patrol and Office of Air and Marine 
and our Office of Field Operations being taken offline for just 
detention.
    So we have a crisis at the Southwest Border, and it is all 
based on moving people and goods illicitly across the border. 
Cartels are about moving goods and people across the Southwest 
Border.
    Senator Portman. So with almost a third fewer people, have 
you seen any reduction in the drug flow? Because we certainly 
have not experienced that on the other end.
    Mr. Glawe. No. We have seen an increase. We have seen an 
increase, and that is what we are apprehending. So those 
numbers are probably low. That is what we are catching. That is 
what else is going in. So we have seen those increases in the 
last 2 years. The cartels are a sophisticated business about 
moving supplies to the United States. They are as good as any 
major business. There are profits in it. It ranges largely, but 
they are a Fortune 500 company, and it is all about moving 
illicit goods across the border. And it is a sophisticated 
network--and I am sure you have heard the names--of plaza 
bosses which run and control what moves across the Southwest 
Border. And they are trafficking supply chains and their 
relationships with China, which is now--the fentanyl production 
that is moving into Mexico. It is very sophisticated, very 
robust, and constantly changing in dynamic.
    Senator Portman. I would love to follow up with you on that 
and maybe a QFR here on the fentanyl issue. My sense is there 
is not a lot of production of fentanyl in Mexico, but there is 
processing. They are getting it, just as we were getting it, 
through the mail system--and still do, by the way. But they are 
getting it to Mexico, often converting it into a pill form, and 
then sending it over. Again, a huge increase compared to even a 
few years ago, so a new threat on the border.
    But, look, I think the demand side is key here. We have 
done a lot of work on that. We will continue to, on prevention, 
recovery programs, and treatment. But we have to do something 
to deal with the flow, too, because this crystal meth, I will 
tell you, on the streets of Columbus, Ohio, I am told it is 
less expensive than marijuana, and deadly. So we would 
appreciate any input you have as to how we can do a better job 
to reduce that supply, at a minimum not just reducing the 
poison coming into our communities, but reducing the impact 
because it will increase the cost.
    Mr. Glawe. Senator, I would just follow up. As far as 
actioning this, it is a sophisticated approach that goes beyond 
just law enforcement. It is a partnership with our U.S. 
intelligence community partners, our Mexican intelligence 
community partners, the Mexican military as well as our 
military. That partnership is robust, and we have a very good 
relationship with our Mexican partners. But it is really upping 
the game and a strategy to impact these groups. That is going 
to have to go city by city, State by State. As I mentioned to 
Chairman Johnson earlier, there are some areas that are 
primarily controlled by the cartels and that supply chain, it 
is very sophisticated and will require a real strategic 
approach to how we are doing business.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Mr. Chairman, thank you.
    Let me first say to all of you thank you for the work that 
you are doing. You do not hear that enough. There are a lot of 
threats, and you face a lot of things, and you go through a lot 
of information each and every day for the sake of our Nation 
and for the people in my State in Oklahoma. And we appreciate 
that very much.
    Yesterday we had an event in Oklahoma city that we just 
called ``Day One.'' It was an event that is 168 days away from 
the 25th anniversary of the Murrah Building bombing in 1995. 
Twenty-five years ago, we lost 168 Oklahomans, many of them 
Federal employees, and their families, many of them children. 
We remember distinctly well what domestic terrorism looks like 
in Oklahoma City, and we have not forgotten about that.
    So from all of us and for the families and the people that 
I live around, we want to say thank you that you are staying 
vigilant in this, because we do not take domestic terrorism 
lightly.
    So, with that, let me ask you an unfair question. As you 
look at your time that you have to spend and the threats that 
you face right now, give me a percentage of threats that you 
face based on domestic terrorism and acts and international 
terrorism that are coming. Is that 60/40? Is it 50/50? Is it 
70/30? Again, it is an unfair question, but give me your best 
guess of what you are tracking right now.
    Mr. Wray. Are you asking specifically about within the 
terrorism threats or about all threats, writ large?
    Senator Lankford. Within terrorism threats.
    Mr. Wray. I would think we are probably roughly half and 
half, international/domestic, on the terrorism front right now. 
Certainly the number of arrests that we had in fiscal year 2019 
was, I think, 107 domestic terrorism arrests, 121 international 
terrorism arrests. The investigations of domestic terrorism, 
probably about 900 right now, say; about 1,000 HVEs.
    Now, we do have other foreign terrorist organization 
investigations, so it is probably more investigations on the 
international terrorism side, but that gives you a little bit 
of a sense.
    Senator Lankford. Right, that helps. When you identify the 
different types of international terrorism threats that are 
coming into the United States or that have a threat that you 
can identify coming toward the United States, is there a 
certain ideology that seems to be more typical for 
international foreign threats coming at the United States?
    Mr. Wray. Of course, we are looking at both Sunni and Shia 
threats, but I think in terms of the most immediate lethality, 
it is the Sunni threats that are the ones that are more 
concerning. I am sure Director Travers may have a few things to 
add to that, but, in particular, the ISIS-inspired attackers 
here, these are people who are not necessarily--did not get up 
in the morning true believers, but kind of spent time online, 
radicalize, and essentially have latched onto an ideology as an 
excuse to commit crude but very lethal attacks against often 
soft targets using easily accessible weapons. That is probably 
the biggest threat to the homeland.
    Senator Lankford. Right. Senator Rosen and I have worked on 
an anti-Semitism task force and continue to be able to bring up 
some of the issues of domestic terrorism and threats, as has 
been already named, the threat that was just confronted this 
past weekend in Colorado toward one of the synagogues there. 
There is a growing sense of ideology in multiple different 
areas, and we are grateful that you are continuing to be able 
to engage foreign as well as domestic.
    Let me shift topics just slightly on that because I wanted 
to get a feel for where we were on that. Let me shift to 
election security. This has been an ongoing issue that Congress 
continues to be able to address. We have talked about multiple 
times with the Department of Homeland Security and their 
responsibility to be able to address election security.
    This Congress allocated $380 million in election security 
funding in 2018 to States, but the last time that I tracked 
those numbers, not even half of that money has been spent by 
the States yet. Do you have a good estimate at this point what 
the States have spent from the $380 million that Congress 
allocated to deal with election security? How do you evaluate 
the status of preparation for election security right now?
    Mr. Glawe. Senator, as the head of intelligence, I will 
have to get back to you\1\ on the States' allocation of those 
resources that we sent them. I will take that question for the 
record to come back with you.
---------------------------------------------------------------------------
    \1\ The get back response from Mr. Glawe appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    Regarding the execution of what we are doing within the 
Department, you are very aware that the Cybersecurity and 
Infrastructure Security Agency that is run by Director Chris 
Krebs has had an aggressive partnership with all 50 State 
election officials and territories. In the lead-up to the 2018 
election, we conducted over 1,400 field interviews and 
engagements directly with State officials.
    Just to give you an idea of our production as far as 
intelligence sharing directly with the States, classified and 
unclassified, in the lead-up to the 2016 election, we did 24 
intelligence reports. In the lead-up to the 2018 election, 
through my office we had 313, and we are going to do quite a 
bit more in the lead-up to 2020. We are looking at attacks on 
the critical infrastructure of the election systems, but then 
also, as Director Wray has mentioned as well, we are really 
looking at that foreign influence campaign, that covert 
influence, the use of social media, the amplifying effect to 
try to affect elections, but any range of things that could be 
used by threat actors at the State and local level, not just 
the Federal level.
    Senator Lankford. Do you have what you need at this point 
to be able to help secure the elections?
    Mr. Glawe. Senator, I welcome a discussion and going back 
with my colleagues in the Department to have an answer for 
that, but at the Department we are aggressively posturing our 
resources in partnership with the FBI, in partner with all the 
other U.S. intelligence community assets as well, and specific 
collection requirements they have regarding what our 
vulnerabilities are. And then I would just like to highlight 
that we are in over 80 Fusion Centers, as we mentioned earlier, 
as an information touch point--and I created the information-
sharing enterprise, the backbone of the technical 
infrastructure, which is the Homeland Security Information 
Network, which I have to thank--and I know you are not 
Appropriations, but you guys have funded and authorized us to 
use that, and that has been a fantastic information tool.
    Senator Lankford. Thank you.
    Director Wray, I need to ask you a question that I do not 
need a specific answer for, but we can get it in a classified 
setting and go through in greater depth on this. When American 
individuals travel to Russia or China, there seems to be ample 
number of individuals to be able to track them and to be able 
to follow them and to be able to make sure that they are aware 
of all of their movements. I have yet to be able to talk to an 
American yet that has traveled to China or Russia and said, 
``Yes, they ran out of people to be able to trail me.''
    Do you have the resources that you need for individuals 
that you have suspicion on that are Chinese nationals or 
Russian nationals currently in the United States to be able to 
make sure that we have coverage of the level that is needed for 
individuals that there is highest suspicion?
    Mr. Wray. I can tell you that our counterintelligence 
program is an area where we are in need of growth and 
resources, not just agents and analysts but linguists, and we 
need more data analytics. All of these issues, including on the 
one that you are mentioning, in today's world involve terabytes 
and terabytes of data. In order to be able to be agile to 
exploit that quickly and effectively, we need to have the right 
tools to be able to get through that information.
    And so I know the President's budget request has requests 
in that category, but I can assure you that that is the kind of 
thing that would be put to great use quickly.
    Senator Lankford. That is great. Thank you.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman. One thing I have 
noted in each of the questions that have been answered so far 
is the questioners have begun by expressing appreciation to 
your respective agents for the work that they do. I think I 
certainly speak for myself and I believe I speak for all the 
members of the Senate that I have spoken with, and it probably 
includes almost all, which is there is a very profound 
appreciation for the sacrifice and the extraordinary 
professionalism of the men and women who serve in your 
respective agencies, and I hope that that is expressed to your 
members time and time again.
    Mr. Glawe, you spoke about foreign nations in particular 
that try and interfere with our sense of unity in the country, 
our political process, our elections--Russia, China, North 
Korea, and Iran. Can any one of you give me, if you will, kind 
of a rough sense of is this an ad hoc process that goes on 
within the country, or is it organized by their governments and 
staffed by a certain number of people with a budget associated 
with it? If it is organized, do we have a sense of the scale of 
the enterprise that is undertaken by each of these countries to 
interfere with our election process to sow disunity through 
social media and the like?
    Mr. Wray. I think there might be more that we could say, in 
a classified setting on that, but what I would say is that all 
of those countries have designs in engaging in malign foreign 
influence in this country. Of them, the Russians are the ones 
who have most advanced this idea of sowing divisiveness and 
discord, the pervasive messaging campaigns, false personas, 
things like that. But certainly Iran we know is taking very 
careful note of what the Russians have done and has its own 
malign foreign influence efforts, some of which have a cyber 
dimension to them, and that is something we are tracking very 
carefully.
    Of course, the Chinese, that is a whole other kettle of 
fish, as it were, and they have a very robust foreign influence 
effort here, but it is a different--they all have their own 
shapes and sizes to the problem.
    Senator Romney. But it is highly organized by each of their 
respective governments; it is not just something that is done 
on an ad hoc basis?
    Mr. Wray. I think that is a fair statement.
    Senator Romney. Yes, as you spoke, Director Wray, about the 
incursions on an hourly basis of Chinese in particular, but as 
well as other countries, into our corporate databases, our 
government databases and so forth, I thought about how 
impossible the task must be to try and protect all the places 
people can attack. I was reminded of the mutual assured 
destruction orientation that was part of our national security 
with regards to nuclear weapons.
    Should we have a mutually assured disruption effort of some 
kind, which is to say is the only way to prevent the number of 
attacks and the severity of attacks that we are seeing an 
indication that we can do the same thing to them, only we can 
do it harder and bigger and more destructively such that they 
say, OK, we better stop or we are going to suffer as well?
    Mr. Wray. I do not know if I would say that is the only 
way. I think offensive cyber operations are an important part 
of any nation's cyber strategy and it is ours. We are working 
much more closely with the private sector than ever before in 
terms of trying to help them defend themselves and our 
relationships with businesses; ranging from small startups all 
the way to Fortune 100 companies are much more robust than when 
I was in this world when I was at DOJ many years ago. In many 
ways, today's cyber threat is less about and cybersecurity is 
less about preventing the intrusion in the first place, 
although that is obviously the goal, and more about detection 
as quickly as possible and mitigation as quickly as possible 
once you find it.
    Think of the example it is great to put locks all around 
the outside of your house and cameras and lights and everything 
else. But if the guy has already managed to pay off somebody to 
get inside your basement and he is just hanging out there, all 
the stuff on the outside is not going to do a whole lot.
    So a lot of the efforts today, working together with DHS 
and others, are trying to get organizations to be able to 
quickly find the threat, quickly tie it off, and prevent the 
damage from getting worse.
    Senator Romney. Just one question, and perhaps for any one 
of you or all three of you, and that relates to cryptocurrency. 
I am not on the Banking Committee. I do not begin to understand 
how cryptocurrency works. I would think it is more difficult to 
carry out your work when we cannot follow the money because the 
money is hidden from us and wonder whether there should not be 
some kind of effort taken in our Nation to deal with 
cryptocurrency and the challenges that that presents for law 
enforcement and for deterrence of terrorist activity. Am I 
wrong in thinking this is an area we ought to take a look at? 
Or is cryptocurrency just not a big deal as it relates to your 
respective responsibilities?
    Mr. Wray. Certainly for us, cryptocurrency is already a 
significant issue, and we can project out pretty easily that it 
is going to become a bigger and bigger one. Whether or not that 
is the appropriate subject of some kind of regulation as the 
response is harder for me to speak to. We are looking at it 
from an investigative perspective, including tools that we have 
to try to follow the money even in this new world that we are 
living in. But it is part of a broader trend, and Director 
Travers alluded to it in terms of the terrorist threat, in 
terms of our adversaries of all shapes and sizes becoming more 
facile with technology and, in particular, various types of 
technology that anonymize their efforts. Whether it is 
cryptocurrency, whether it is default encryption on devices and 
messaging platforms, we are moving as a country and as a world 
in a direction where, if we do not get our act together, money, 
people, communications, evidence, facts--all the bread and 
butter for all of us to do our work--we will be essentially 
walled off from the men and women we represent.
    Senator Romney. Thank you. I would just close, Mr. 
Chairman, and just acknowledging that the President today spoke 
of the tragedy which occurred in Mexico where apparently three 
women and six children were brutally murdered and has offered 
our national support to help the Mexicans get to the bottom of 
this. I appreciate the fact that you are willing to participate 
in that at the direction of the President, and hopefully we 
will find a way to bring people to justice who deserve to be 
brought to justice, and also prevent events like this from 
happening in the future.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Romney.
    Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    Director Wray, a question on the cybersecurity topic, if I 
could, and as it relates to China in particular. Are you 
concerned about the growing practice of American technology 
companies, or any American companies, for that matter, storing 
large amounts of data, consumer data, business data, in China 
and sometimes storing the encryption keys to that data in 
China? What sort of a cybersecurity risk does this pose? Is 
this something you are tracking, that you are concerned about?
    Mr. Wray. It is something that we are concerned about, in 
part because Chinese laws require a level of access that is 
unparalleled certainly in this country in terms of law 
enforcement and security services. Chinese law essentially 
compels Chinese companies and typically compels U.S. companies 
that are operating in China to have relationships with 
different kinds of Chinese companies, to provide whatever 
information the government wants whenever it wants essentially 
just for asking. And so that creates all kinds of risks across 
the various threats that we have to contend with.
    Senator Hawley. And your point there about the Chinese laws 
and the access to data that Beijing requires sort of works in 
two ways, doesn't it? It is a problem for American companies 
who choose to store large amounts of data in China because to 
do so, they have to partner under Chinese laws with some sort 
of Chinese counterpart that often has ties to the government, 
right? That is number one.
    Number two, it is also a security risk from the point of 
view of Chinese-based companies who have access to our market, 
who do business here, gather large amounts of information on 
American consumers, like TikTok, for instance, but actually are 
owned or based in China and, therefore, are subject to those 
same Chinese laws on data and data sharing. Is that fair to 
say?
    Mr. Wray. That is absolutely something that we are 
concerned about. You start with the proposition that an 
astonishing percentage of Chinese companies are, in fact, 
State-owned enterprises, but even the ones that are not 
technically State-owned enterprises, the ones that are 
ostensibly private are subject both to the Chinese laws that I 
referred to a minute ago as well as--and I think a lot of 
people just kind of gloss right over this. Any Chinese company 
of any appreciable size has by Chinese law embedded in them 
Chinese Communist Party cells, or ``committees,'' as they are 
called, whose sole function is to ensure that that company 
stays in lockstep with the Chinese Communist Party's policies.
    Can you imagine something like that happening with American 
companies and American policy? I mean, it is something that 
people need to take very seriously.
    Senator Hawley. Yes, absolutely, and thank you for your 
work on this. I think as you point out, I think American 
consumers do not realize the threat to their own data security 
and privacy when American companies choose to store that data 
in China and thereby open up potentially that data to use by 
the Chinese Government, or they do not realize that Chinese-
based companies who are doing business in this country are 
subject to those same laws. And so it works both ways.
    Switching gears, Secretary Glawe, let me ask you about the 
border. Senator Portman was talking about the influx of meth 
and the serious effects it has in Ohio. I can tell you in the 
State of Missouri we are absolutely overwhelmed with meth 
coming across the border. There is not a community in my 
State--urban, rural, north, south, east, west--that is not just 
awash in meth.
    You pointed out that between, I think it was, 2017 and 2019 
the Southern Border apprehensions are up over 200 percent for 
meth. I just wanted to drill down on a few additional details 
here and to get your input.
    Did I hear you to say to Senator Portman that the meth 
apprehensions and other drug apprehensions have continued to 
increase even as border apprehensions of illegal individuals 
have decreased? Is that right?
    Mr. Glawe. That is correct, and, again, this is a 2-year 
snapshot. So it was cocaine, 40 percent; fentanyl, 20 percent; 
heroin, 30 percent; and methamphetamine, 200 percent. That is 
at the border where we are seizing that. That is in addition to 
the migration challenges we have had just by officers taken 
offline with the detention processing. We are still seeing the 
numbers up.
    Senator Hawley. Do you have any sense in the last few 
months--I know that we have seen a decline in the last few 
months of border apprehensions of individuals, but do you have 
a sense or do you know what the numbers for contraband look 
like?
    Mr. Glawe. Senator, we could get back as a QFR on that,\1\ 
but what I would say--and I said this earlier--is the business 
model for the cartels is to move illicit goods and people 
across the border, to get them there and to move them. And that 
grows through a very sophisticated network inside the country 
of Mexico and south of Mexico, as well as a management 
structure called ``plaza bosses'' that occupy the entire 
Southwest Border. They control what goes across and what does 
not go across, and it is all based on money and moving people 
and goods.
---------------------------------------------------------------------------
    \1\ The get back response from Mr. Glawe appears in the Appendix on 
page 85.
---------------------------------------------------------------------------
    Senator Hawley. Let me ask you this: You talked about 
fentanyl production moving at least to some degree to Mexico, 
from China to Mexico, although it sounds like it may be in 
partnership with Chinese outlets. Can you say something more 
about that?
    Mr. Glawe. What I would say is--we may want to take this 
into a classified setting, but we have seen that the fentanyl 
production and trafficking, as we would anticipate, the cartels 
own the supply chain in the United States and the trafficking 
routes getting in here, that fentanyl production and 
trafficking would begin to move into Mexico, and we are seeing 
that.
    Senator Hawley. Finally, let me ask you this: You said that 
in order to address this crisis, the drug crisis, and the flow 
of drugs over the border, it would require a change in our 
whole strategic approach. Can you say more about what you have 
in mind and what you think needs to change, maybe what this 
Committee and this body would do to give you the tools that you 
need?
    Mr. Glawe. I would say I would welcome a conversation that 
would probably expand upon my partners here at this table, but 
in my prior capacity as a unique witness, I was the Deputy 
National Intelligence Manager for Transnational Organized Crime 
when I was at the ODNI. When I say that it is a strategic 
approach, what I mean is bringing law enforcement, U.S. 
intelligence community, Mexican intelligence community, and 
military assets to bear in Mexico in some of these lawless 
areas where the cartels are essentially running the area. But 
that also has to be hand-in-glove with our demand. The United 
States has a high demand for narcotics, so it is a joint 
process. It is in that realm of having that partnership with 
our Mexican counterparts in that space to identify the bad and 
fill it with the good.
    Senator Hawley. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Hawley.
    Before I turn it over to Senator Peters, just a quickly 
follow up, because I think we need to underscore this. Although 
our border is rather unsecure on our side, would you agree with 
the statement that on the Mexican side of the border it is 
pretty secure? There is not much that passes through the 
Mexican side of the border without Mexico--the cartels and 
human traffickers--knowing about it, correct?
    Mr. Glawe. The plaza bosses and the cartels run the south 
side of the border on the Mexico side. Does the Mexican 
military and law enforcement have the capability? They do. But 
it is going to require a strategic approach of how those 
resources that are deployed in partnership with us, but the 
cartels are incredibly powerful. We also have to bear in mind 
that there is a corruption angle that plays into this as well.
    Chairman Johnson. So where there is a will to secure a 
border, there is a way, and Mexican cartels prove it on the 
southern side.
    Mr. Glawe. Chairman Johnson, I think your assessment there 
is correct, but there are models out there where we have been 
successful. Colombia is a model of success we had in 
partnership with that government years ago.
    Chairman Johnson. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    I just want to follow up on what I hope is the priority for 
all three of you, and that is to combat foreign influence in 
our elections. Director Wray, my question to you--and I think 
it is accurate that is a priority for you. Yes or no?
    Mr. Wray. Absolutely.
    Senator Peters. What direction, if any, have you received 
from the White House about the priority of foreign influence in 
our elections?
    Mr. Wray. I think it has been made crystal clear to us that 
it is a priority for us to combat malign foreign influence from 
any nation-state, including Russia, including China, including 
Iran, and others.
    Senator Peters. How has that been communicated to you by 
the White House?
    Mr. Wray. We have had numerous meetings over at the White 
House with the NSC and with others on election security issues, 
and so it has been sort of a recurring theme in those meetings.
    Senator Peters. Is the White House doing anything to 
coordinate with other security agencies? Are they pulling folks 
together in a coordination fashion, in your estimation? If you 
could explain how that is happening?
    Mr. Wray. Certainly we have had NSC meetings and NSC-driven 
coordination over the time that I have been Director. But, in 
particular, the way it works right now is that with the NSC's 
direction and the White House's direction, ODNI brings together 
a smaller group as opposed to the more sprawling NSC apparatus. 
In particular, it is us--FBI, ODNI, DHS, and National Security 
Agency (NSA) are sort of the key players and then others from 
time to time as need arises. There is all kinds of engagement 
between, for example, our Foreign Influence Task Force, which I 
stood up after becoming Director; the Russia small group at NSA 
that General Nakasone stood up; and there is, a similar type of 
body at DHS and so on, and ODNI. There is a woman at ODNI, very 
experienced, very seasoned, who then-Director Coats put and she 
has remained in charge of kind of coordinating the efforts kind 
of on a more day-to-day basis.
    Senator Peters. I continue to hear from my constituents in 
Michigan about very lengthy and intrusive screenings every time 
they travel, Secretary Glawe. They describe it as a ``back-door 
travel ban'' that discourages them from traveling, and it hurts 
their business and their families, and certainly maintaining 
safe and secure air travel while protecting civil rights of 
law-abiding travelers is a balance we may have to achieve, as 
we talked about earlier. You have a lot of balances that you 
have to do in your agency.
    But my question to you is: The Department has indicated to 
my staff that they will now lead a comprehensive review of 
secondary screenings in fiscal year 2020 with input from other 
relevant Federal partners. Could you describe how you would 
envision that process and how you would expect those 
recommendations to come out?
    Mr. Glawe. Ranking Member Peters, I would have to take that 
question for the record\1\ to go back to U.S. Customs and 
Border Protection, who it sounds like would be leading that, 
because they are the ones that do the secondary inspections. 
But what I can say, coming from that organization, is we are 
always cognizant of the civil rights and civil liberties of 
U.S. citizens, foreign citizens who travel in the United 
States, and the protocols and the oversight with that has been 
very rigorous. But I will take that for the record and come 
back for an answer with you.
---------------------------------------------------------------------------
    \1\ The get back response from Mr. Glawe appears in the Appendix on 
page 83.
---------------------------------------------------------------------------
    Senator Peters. If you could do that in a quick manner, I 
would appreciate it.
    The vast majority of constituents that I also hear from are 
very deeply dissatisfied with the DHS Traveler Redress Inquiry 
Program (TRIP), which is, as you know, the redress process for 
travelers who experience screening difficulties. Are there ways 
to expand and strengthen TRIP so that applicants do not feel 
ignored? Do you have some specific recommendations how we can 
make this process more efficient?
    Mr. Glawe. Again, similar to my prior answer. Being the 
head of intelligence, I will have to take that back for the 
record and have an answer for you on that.
    Senator Peters. I would hope we could get that answer 
quickly. I would appreciate it.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Sinema.

              OPENING STATEMENT OF SENATOR SINEMA

    Senator Sinema. Thank you, Mr. Chairman. I appreciate our 
witnesses being here today.
    As a Senator from a border State, I know it is critical 
that we work together to tackle threats against the homeland 
and along our Nation's borders. I remain committed to working 
every day to secure Arizona's border, keep Arizonans safe, and 
ensure that migrants are treated fairly and humanely.
    I would like to start with the tragedy that occurred on 
Monday in Sonora, Mexico. My deepest sympathies and condolences 
go to the victims and their families. Details are still coming 
in, but we know that at least nine people, including mothers 
and young children, were murdered, apparently by transnational 
criminal organizations involved in the illicit drug trade. 
These victims have relatives from Arizona, and my State is 
hurting right now.
    So my first question is for you, Mr. Wray. In this 
situation, will the FBI play a role in bringing these 
perpetrators to justice, ensuring that the families receive 
some redress?
    Mr. Wray. So thank you, Senator. We, too, are deeply 
troubled and heartbroken about the loss. We have through our 
legat office in Mexico reached out to our Mexican partners, to 
offer assistance and are engaged with them also with the 
embassy and the State Department.
    In addition, we are in the process of having what we call 
our ``Victim Services Division'' get in touch with the 
relatives who are here in the United States to see if they can 
be of assistance. It is a Division that I think I am very proud 
of just given the way in which they bring a level of compassion 
and sometimes attention to some of the most basic concerns and 
needs of victims and their families.
    Senator Sinema. Thank you.
    For all of our witnesses who are here today, I would like 
to get a commitment from each of you that my office is briefed 
on the investigation, and I would like to hear about your 
agencies' efforts to combat transnational criminal 
organizations. As we see every day, the impact on Arizona and 
Arizonan families is unabated.
    Mr. Glawe. The FBI is the lead, obviously, with the United 
States persons being targeted by that violence overseas. What I 
would say is we are absolutely committed to meeting with you, 
Senator, and I would say as far as the benchmark of 
intelligence and operations, one of our top facilities is 
actually in your State, in Tucson, and I would be delighted if 
I could escort you there for a visit to see it. But it is 
really about that partnership with the State and local law 
enforcement, our Mexican partners, and sharing of that real-
time, tactical-level information so we can identify those 
threats at the border, but really any way south of the border 
in Mexico and sharing that information with our partners in the 
Mexican Government.
    Senator Sinema. Thank you.
    Mr. Wray. Senator, we would be happy to try to keep you 
informed as best we can and as is appropriate. I will 
underscore that, of course, what role the FBI will be able to 
play in Mexico depends a lot on the willingness of our Mexican 
partners to embrace and bring us in, and that is still 
something that is being worked out. It is a very fluid 
situation right now.
    So I do not, as we sit here right now, yet know exactly 
what our footprint, if you will, will look like, but we would 
be happy to follow back up with you as things progress.
    Senator Sinema. Thank you.
    Mr. Travers. The National Counterterrorism Center does not 
actually work that particular issue.
    Senator Sinema. Thank you.
    I would like to ask you a question, Mr. Glawe. I spoke a 
few times with Secretary McAleenan about the need to improve 
information sharing between DHS and HHS regarding allegations 
of abuse that were reported by migrants who had been held at 
the Yuma Border Patrol station, I am sure you recall. Can you 
share the status of DHS efforts to ensure these types of 
incidents are reported more quickly and that swift action is 
taken when there are reports that require more protection of 
migrants and children?
    Mr. Glawe. Senator, as my role is the head of intelligence, 
I do not have a status update on that, but I will take that for 
the record and have an answer for you back.\1\ But I will say 
as a career law enforcement official as well as a Federal law 
enforcement official, the men and women of the Department of 
Homeland Security operate at the highest standards, and when 
there is an incident that has to be reported to the Inspector 
General or to the FBI, that is handled quickly and mitigated as 
fast as possible within the Department.
---------------------------------------------------------------------------
    \1\ The get back response from Mr. Glawe appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    Senator Sinema. Thank you.
    Back in September, this Committee held a hearing with 
outside experts on domestic terrorism. At that hearing I spoke 
about the importance of information sharing and ensuring that 
our State and local law enforcement entities can access the 
information they need. Such information sharing is always 
easier for larger police departments, such as those in Phoenix 
or Tucson, but is more challenging for our rural sheriffs.
    With regard to information sharing between Federal, State, 
and local law enforcement entities, what steps have your 
agencies taken in the past year to ensure that small or rural 
law enforcement entities are able to get better access to 
information about threats and trends? What do these agencies 
still need to improve on?
    Mr. Wray. So I will start, and then turn it over to Under 
Secretary Glawe. On our end our principal engagement from a 
day-to-day basis with our State and local partners, which 
includes some very small departments, is through our Joint 
Terrorism Task Forces, and we have 200 of them all over the 
country. We have task force officers, which are essentially 
State and local officers from, in many cases, including some of 
those small departments who work full or in some cases part 
time on our task forces, which gives them access to all the 
same information that all the FBI folks and Federal partners on 
the task forces have. That is probably the most significant 
means.
    In addition, we jointly with DHS on a number of instances 
will put out bulletins of different sorts--they are pretty 
frequent--that provide information in a fairly granular way 
about what we are seeing in terms of threats and so forth. So 
those are some of the big ones that I would highlight. I will 
maybe let David chime in.
    Mr. Glawe. Yes, just to follow on that, a couple of the big 
infrastructure--and I will talk about very specifics with 
Arizona and the Southwest border. So my office hosts the 
Homeland Security Information Network-Intel. So we host the 
products for the FBI, for the Department of Homeland Security, 
our State and local partners, and the private sector. There are 
currently 42,000 products on it. In fiscal year 2017, we had 
about 17,000 or so views. I am happy to report that in 2019, 
after a very aggressive rollout we had over 90,000 views. We 
hosted over 11,500 products. This is an unclassified network 
that is available in all Fusion Centers as well as satellite 
locations at a log-in capability.
    Regarding the Southwest border, because, you are right, we 
have a limited capacity, and they need intelligence officers to 
give them tactical-level information, unclassified information 
and classified. I did a pilot program starting in, I believe it 
was, June and May. I put 19 DHS intelligence officers on the 
Southwest border to include Arizona. That resulted in 45 drug 
seizures--45 drug-related arrests, 35 seizures of weapons and 
drugs, and 115 intelligence reports. I am going to permanently 
deploy I think right around ten intelligence officers 
permanently to the Southwest border in the very small sheriffs' 
and municipal law enforcement departments to enable them to do 
an enterprise approach and scale capabilities to share 
information.
    Senator Sinema. Thank you.
    A follow up question for both of you. Last year, Congress 
passed and the President signed into law the Preventing 
Emerging Threats Act which grants authorities to DHS and the 
DOJ to counter threats from unmanned aircraft systems. During 
my visits to the border, I have seen evidence of the threats 
these drones can pose. I have actually watched drones come over 
the border in broad daylight.
    So could you tell us about what DHS and DOJ are doing to 
mitigate the dangers to our Nation from these unaccompanied 
aircraft system threats?
    Mr. Glawe. Senator, thank you for the question, and I was 
Chairman Johnson's--one of his lead witnesses in the lead-up to 
passing that legislation that he championed, so I can speak 
specifically, and I was also on the Southwest border and did a 
report from there for one of the news networks. So this is a 
threat that continues to be a threat. We track that at the 
Department of Homeland Security, not just on the Southwest 
border but on drone incursions over critical infrastructure, 
and we are seeing a percentage increase that just keeps 
increasing. In engagement with our State and local and private 
sector partners, I was just out with the Los Angeles Police 
Department chief and the New York Police Department 
commissioner, on drones. While the drone legislation was an 
outstanding first step, they are saying now that they need more 
capabilities and more within their own authorities to mitigate 
these threats.
    But the Southwest border is just one of the many drone 
threats that threatens our critical infrastructure, our mass 
gatherings, and ways to move illicit goods over the border as 
well as use it as a countersurveillance platform to suck up 
information from our military or our law enforcement or our 
private institutions in the country.
    Mr. Wray. I would just add that while we are extremely 
grateful to the Chairman and others for that legislation, this 
is a threat that is overtaking us in many ways. We are 
currently investigating a number of incidents in the United 
States of attempts to weaponize drones in one way or another. 
Certainly we have been seeing them, as you mentioned, down on 
the border. We have also seen drones used to deliver contraband 
into prisons, and, of course, as the rest of the Committee 
knows as well, there have been efforts to use drones quite 
frequently on the battlefield against our forces and our allies 
overseas.
    Our focus from the FBI end has been principally on the mass 
gathering situations, so we are very focused on things like the 
Super Bowl, etc., not because the others are not incredibly 
important, but just in the realm of being able to prioritize 
the use of these new authorities. That is at the moment where 
we are. There is going to be a need for more technological 
solutions. Disrupting drones over large, crowded civilian areas 
is a different kind of exercise than doing it in the 
battlefield. We are working very closely with our partners, 
DHS, Department of Transportation (DOT), Department of Defense 
(DOD), and obviously DOJ on that.
    Senator Sinema. Thank you.
    Mr. Chairman, I have exceeded my time. Thank you for your 
indulgence.
    Chairman Johnson. Yes, you have.
    Senator Sinema. Sorry. I apologize. [Laughter.]
    Chairman Johnson. Thanks, Senator Sinema. But you used it 
well because you actually asked a question I was going to ask 
about drones.
    Senator Sinema. Oh, see? Then it is not actually my time. 
It is fine. It does not count.
    Chairman Johnson. So let me quickly follow up on that, 
though. We always felt that piece of legislation was just a 
first step, begin those authorities so you could begin doing 
the research and develop the strategies for doing something 
very difficult to do.
    So the question I have: How far have we come in terms of 
doing that research, developing those strategies? Do you 
already need more authority? Do you need another piece of 
legislation? Have you come far enough where we need to go to 
the second step?
    Mr. Wray. I do not think I am quite ready in this kind of 
setting to propose some kind of additional legislation, but 
what I would say is that I think there is--if memory serves, 
there is a report that we are scheduled to be providing to you 
all on exactly the question you are raising to address the need 
for identifying other gaps that might exist. And I do know, 
from traveling around the country and meeting with State and 
local law enforcement, that while they are very excited that 
Federal authorities now have this civilian use capability, they 
want to know when they can get it.
    Chairman Johnson. They are still acting.
    Mr. Wray. Right.
    Chairman Johnson. So you are not ready to say--I will ask 
Under Secretary Glawe the same thing. You may not be ready 
right now to propose a piece of legislation, but you are 
basically saying sometime in the future you will need some more 
authority, if not the Federal Government, also local officials.
    Mr. Glawe. Yes, just to follow on what Director Wray said, 
our science and technology branch is partnering with the FBI 
down at Quantico on the countermeasures and how we are 
supporting national security special events and identifying and 
mitigating those threats. But the threat is bigger than those 
national security special events.
    What I would say is we monitor it from the analyst side of 
the emerging technologies. We have radio-controlled drones. We 
are now moving into 4G, which will have 5G capabilities. What 
is that going to look like? Is the legislation keeping up with 
that capability of the emerging technologies? I think that is a 
question to come back and have that discussion on.
    But as this technology advances so rapidly for commerce 
purposes, the nefarious aspects of it or just from a safety 
aspect, I think there is a conversation to be had on how we 
have to really stay on top of the legislation on this.
    Chairman Johnson. Again, we will have to cooperate. That 
report will be important.
    By the way, part of the main reason we were able to pass 
that piece of legislation is because we have the video of--I 
believe it was ISIS using this in Iraq, and you can see the 
drone go over the target, lower, drop a bomb, boom, pinpoint 
accuracy. And that got everybody's attention. It still took us 
a little while. We were not able to put it in the National 
Defense Authorization Act (NDAA). We finally got it in the 
Federal Aviation Administration (FAA) reauthorization bill, but 
that cooperation is going to be important.
    Director Travers, you addressed a little bit the situation 
of ISIS prisoners. I want to drill down a little bit deeper. 
First of all, have our European partners started stepping up to 
the plate and gotten a little more serious about--and, again, I 
realize, because I talk to them all the time, it is very 
difficult. They do not necessarily have laws to handle this. 
But are they considering the return of foreign fighters and 
prosecuting them under their own laws so that they are just not 
looking to somebody else to detain these people forever?
    Mr. Travers. You are quite right that the issue of 
repatriation has been a problem for years because of the 
inability to either prosecute--because of lack of evidence or 
short sentences, they have not been willing to bring prisoners 
back. They have been somewhat more willing to bring women and 
children back, but even that has been a bit of an issue.
    Ever since over 2 or 3 weeks ago when the incursions 
started, there has been a flurry of activity I think within 
European capitals about trying to bring their women and 
children home, in particular, out of some of the internally 
displaced person (IDP) camps, out of humanitarian interests. We 
have not seen any increased level of willingness to bring their 
foreign fighters back. In fact, there has been some getting rid 
of citizenship just so that they can kind of wipe their hands 
of it.
    Chairman Johnson. In terms of responsibility duty sharing, 
I have heard the proposal that maybe the Arab States could go 
into the camps with women and children, go through a sorting 
process to a certain extent, which of those detained 
individuals can potentially be rehabilitated, brought back into 
society versus those that need to be considered for longer-term 
detention. Are you hearing efforts or any kind of initiatives 
occurring along those lines?
    Mr. Travers. I think frankly, right now, because there is 
so much turmoil and uncertainty geopolitically about who is 
going to control these things, the likelihood of that is 
probably going down. There has certainly been some willingness 
on the part of the Iraqis in particular to bring back IDPs out 
of Al Hol and so forth. There are 30,000 or 40,000 people 
there. But, in general, it is a pretty difficult proposition to 
even know where these people are as they get moved around.
    Chairman Johnson. So give me your general assessment of all 
the players, and we have Turkey and we have the SDF and we have 
Assad and we have Russia, we have Iran. Obviously, we have our 
desire to make sure that ISIS cannot reconstitute. Is there 
pretty much a universal desire not to allow ISIS to 
reconstitute? Or is there a little bit less commitment on the 
part of some of those players?
    Mr. Travers. There is no one that wants ISIS to 
reconstitute. I think it is fair to say that the Turks, for 
instance, are more concerned about PKK than they are against 
ISIS. I do not think anyone has as much concern as perhaps we 
do in the area about ISIS. But, in general, for instance, my 
guess is there is going to be an effort to keep those prisoners 
in prison whomever gets control of the prisons if the Turks 
move any further south.
    Chairman Johnson. OK. My final question is for honestly all 
of you who want to contribute to this, but the Blue Ribbon 
Study Panel that we had testimony from a couple of years ago, 
their primary conclusion was we need somebody in charge. I 
think their recommendation was put it in the Vice President's 
office, and back then Vice President Biden, pretty close to the 
end of their term, said, every administration will be somewhat 
different. But we had the same issue when we were discussing 5G 
in our hearing just last week. I think we found out that it is 
the National Economic Council and Larry Kudlow is kind of in 
charge of the 5G aspect of cyber.
    But if you go all the way down the list, whether it is, 
catastrophic electromagnetic pulse (EMP) or geomagnetic 
disturbance (GMD) attack, a cyber attack shutting down our 
electrical grid or financial system, some kind of weapons of 
mass destruction (WMD) chemical or biological attack--natural 
disaster, I think we pretty well assume Federal Emergency 
Management Agency (FEMA) is going to take charge of that, 
starting with local, then State, and then FEMA comes in when it 
overwhelms the State and local governments.
    In the other instances, is there a sense within your 
agencies that you know exactly who is going to be stepping up 
to the plate in terms of recovery and response to one of these 
potential catastrophic threats? I will start with you, Under 
Secretary Glawe.
    Mr. Glawe. From the Department it is very well defined. I 
mean, the Federal Emergency Management Agency is there as well 
as the Cybersecurity and Infrastructure Security Agency 
Director Chris Krebs in that position. So within the Department 
it is clear, and the lines from the intelligence, from the 
vulnerability side, are clearly mine, and the collection 
requirements going to the U.S. intelligence community and 
foreign partners flows through me. So I would say within the 
Department I am very comfortable to say the lines of effort 
are----
    Chairman Johnson. But, again, that is within the 
Department. Are there going to be turf battles? Is everybody 
going to be looking at and pointing fingers at somebody else in 
terms of who has the overall responsibility, who is in charge?
    Mr. Glawe. I mean, from FEMA's standpoint, I think that is 
very clear, their response capability. And within the 
Cybersecurity and Infrastructure Security Agency, I think that 
is very clear.
    From the intelligence apparatus, as Director Wray had 
mentioned, we have a National Intelligence Manager for Cyber 
that aligns our intelligence capability at the ODNI.
    Chairman Johnson. Director Wray, obviously, the FBI 
frequently is first on the spot in some of these mass 
shootings. What about a catastrophic type of attack on 
infrastructure? Do you have a sense or do you know exactly what 
the line of authority is, obviously starting with the 
President, but I mean at an operational level within these 
departments and agencies?
    Mr. Wray. I will take the two categories in turn. There is 
the terrorist category, if you will, and then there is the 
cyber category. I think you are asking about both? Or----
    Chairman Johnson. Yes, I am just talking about no matter 
what might shut down an electrical grid or shut down our 
financial, whatever could really represent almost an 
existential threat to this Nation or be so catastrophic in 
terms of power outage.
    Mr. Wray. I think what I would say on the terrorist attack 
category, for example, I have actually--as somebody who was in 
the FBI headquarters building on 9/11 and intimately involved 
in these issues during the years after 9/11, and then having 
now come back to this world with some time in the private 
sector in between, I can tell you that the machine that exists 
now across the U.S. Government with our partners at the State 
and local level, through the Joint Terrorism Task Forces, etc., 
is so much more mature and robust and kind of a well-oiled 
machine in terms of everybody working together that it was one 
of the most pleasant surprises I found in coming back. So I 
think the lanes in the road and the way in which everybody 
works together is pretty well defined in the terrorist space.
    In the cyber arena, likewise, although it is slightly 
different lanes. As I said in response to one of your 
colleagues' earlier questions, in a major cyber incident, the 
FBI is in charge of investigating the threat, but DHS has to be 
joined at the hip in terms of making sure that appropriate 
steps are taken to protect the asset, and there are well-
defined lanes there.
    I think there is a temptation sometimes to assume that one 
person needs to be responsible for all those things. I think 
really the premium is on coordination, and at some level, given 
the unique nature of the authorities that are involved in 
whether it is a terrorist incident or a cyber incident, you 
start talking about law enforcement authorities that a 
constitutionally entrusted to the Attorney General. You have 
military responsibility, offensive cyber, for example, that are 
in the lane of DOD. I think that while it might sound nice to 
try to create some new person who would be in charge of all 
that, I think, in fact, it would be more complicated and 
actually would not accomplish what was designed.
    So the key is to make sure everybody has their lanes and 
their responsibilities well defined and the partnership, and 
that is what I think I am seeing day to day.
    Chairman Johnson. So not to put you at odds with the Blue 
Ribbon Study Panel, you are a little less concerned about that. 
What you are seeing now, you are seeing a fair amount of 
coordination, and you do not lose a whole lot--you may lose 
sleep over the threat, but you do not lose sleep over the fact 
that it would just be chaos, that nobody would know who is in 
charge or we would not know how to coordinate or cooperate 
within the agencies?
    Mr. Wray. There is always room for improvement, and that is 
important. I do not want to be understood as thinking 
everything is just hunky-dory. But we are, I think in a so much 
better place as a country and as a government, and I would say 
that across governments, Federal, State, and local, than we 
were even just 5 or 6 years ago.
    Chairman Johnson. Again, I think we learned a lot from 
Hurricane Katrina, and from what I can assess, we have made 
great strides since that point in time.
    Director Travers, do you have anything to add to that?
    Mr. Travers. ``Whole of Government'' rolls off the tongue 
pretty easily. I would completely agree with Chris. I have been 
doing terrorism pretty much since 9/11, and I do think that the 
counterterrorism community, writ large, is the best integrated 
effort across the entirety because we have been doing it 
forever.
    Because we have not been attacked in the country now 
really--you have to go back 10 years to Umar Farouk, something 
really potentially big, there is a muscle memory issue, it 
seems to me, and I am big into interagency exercises to just 
kind of compare notes and who is doing what, because new people 
come around. While we are much better coordinated than we were, 
I think it is always useful to get people together and put them 
through their paces.
    Chairman Johnson. OK. I did not think it possible, but 
actually the answer to that last question gave me just a little 
bit more optimism.
    Again, let me thank you all for your service, and like so 
many of my colleagues on the Committee here, please convey to 
the men and women that serve with you our sincere appreciation 
for their service and sacrifice. I think that came across loud 
and clear, and we sincerely mean it. That also gives me a fair 
amount of optimism. When I see the quality of the Federal 
workforce, it does make you rest a little bit easier, even 
though we are facing some pretty complex, pretty difficult 
threats. So, again, thank you for your service.
    The hearing record will remain open for 15 days until 
November 20th at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              





                                 <all>
</pre></body></html>
